Report No. D-2009-109               September 25, 2009




          Contracts Supporting the DOD Counter
         Narcoterrorism Technology Program Office
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense Inspector
General at http://www.dodig.mil/audit/reports or contact the Secondary Reports Distribution Unit at
(703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing at (703)
604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and requests can also be mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ASD(SO/LIC)                   Assistant Secretary of Defense for Special Operations /Low-Intensity
                               Conflict
CNTPO                         DOD Counter Narcoterrorism Technology Program Office
COR                           Contracting Officer’s Representative
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
FMR                           Financial Management Regulation
IDIQ                          Indefinite-Delivery, Indefinite-Quantity
QASP                          Quality Assurance Surveillance Plan
RDT&E                         Research, Development, Test, and Evaluation
SMDC                          U.S. Army Space and Missile Defense Command/Army Forces Strategic
                               Command
U.S.C.                        United States Code
                                INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704



                                                                   September 25,2009

MEMORANDUM FOR THE UNDER SECRETARY OF DEFENSE
                     (COMPTROLLER)/CHIEF FINANCIAL OFFICER
                  DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
                  DEPUTY ASSISTANT SECRETARY OF DEFENSE
                     FOR COUNTERNARCOTICS AND GLOBAL
                     THREATS
                  DEPUTY ASSISTANT SECRETARY FOR
                     PROCUREMENT, ASSISTANT SECRETARY OF
                     THE ARMY (ACQUISITON, LOGISTICS, AND
                     TECHNOLOGY)
                  DIRECTOR, US. ARMY SPACE AND MISSILE
                     DEFENSE COMMAND/ARMY FORCES
                     STRATEGIC COMMAND, CONTRACTING AND
                     ACQUISITION MANAGEMENT OFFICE

SUBJECT: Contracts Supporting the DOD Counter Narcoterrorism Technology Program
          Office (Report No. D-2009-I09)

Weare providing this report for review and comment. We considered comments from the
Under Secretary of Defense (Comptroller)/ChiefFinancial Officer; Defense Contract
Audit Agency; Deputy Assistant Secretary of Defense for Counternarcotics and Global
Threats; and US. Army Space and Missile Defense Command/Army Forces Strategic
Command, Contracting and Acquisition Management Office, when preparing the final
report.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. The
comments from the Under Secretary of Defense (Comptroller)/ChiefFinancial Officer
and the Defense Contract Audit Agency were responsive. While some of the comments
from the Deputy Assistant Secretary of Defense for Counternarcotics and Global Threats
and from the US . Army Space and Missile Defense Command/Army Forces Strategic
Command, Contracting and Acquisition Management Office were responsive, some were
not. Based on comments, we revised draft report Recommendations A.3 .g and A.3.p and
deleted Recommendation A.3.q. We also redirected Recommendation A.I to the Deputy
Assistant Secretary for Procurement, Assistant Secretary of the Army (Acquisition,
Logistics, and Technology). Therefore, we request additional comments and docmnents
for the recommendations listed in the recommendations table on page ii by October 26,
2009.
Please provide comments that conform to the requirements of DOD Directive 7650.3. If
possible, send a .pdf file containing your comments to audacm@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the / Signed / symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-8900 (DSN 664-8900).



                                               4A1l ,. , . ,'\/I/o/A'
                                             J:rr~              V'?f~
                                                                                0



                                             Deputy Inspector General
                                             for Auditing
       Report No D-2009-109 (Project No. D2008-D000AS-0255.000)                September 25, 2009

              Results in Brief: Contracts Supporting the
              DOD Counter Narcoterrorism Technology
              Program Office
                                                           Logistics, and Technology) conduct an
What We Did                                                administrative review of the contracting officers.
The overall objective was to determine whether            SMDC contracting officials should maintain
DOD officials properly managed and                         proper contract files; use the appropriate contract
administered the contracts supporting the DOD              types when awarding CNTPO task orders;
Counter Narcoterrorism Technology Program                  properly identify, track, and monitor
Office (CNTPO). Specifically, we reviewed                  Government-furnished property provided to the
contract management, surveillance, and billing for         contractor; obtain Theater Business Clearances;
35 task orders worth approximately $98.8 million           implement and monitor quality assurance
issued on or before August 16, 2008.                       surveillance plans; properly designate trained
What We Found                                              CORs; require CORs and CNTPO contractors to
                                                           follow billing requirements, and use receiving
 The CNTPO internal controls were not adequate.           reports to formally accept goods and services.
  We identified weaknesses in the management,             The Director, Defense Contract Audit Agency
  surveillance, and billing processes of the               should review all public vouchers and conduct a
  contracting officials and the CNTPO.                     cost audit of the indefinite-delivery, indefinite-
 U.S. Army Space and Missile Defense                      quality contracts.
  Command/Army Forces Strategic Command                   The Under Secretary of Defense
  (SMDC) contracting officials and contracting             (Comptroller)/Chief Financial Officer should
  officer’s representatives (CORs) did not                 direct the Under Secretary of Defense for Policy
  perform proper contract management for the               to initiate a preliminary review of the
  35 task orders reviewed valued at $98.8 million          four potential Antideficiency Act violations.
  and could waste $439,000 on fees to acquire             The Deputy Assistant Secretary of Defense for
  commercial items (Finding A).                            Counternarcotics and Global Threats should
 SMDC contracting officials and CORs did not              stop all work on construction projects over
  develop surveillance plans, use receiving                $1.5 million until they are appropriately
  reports to formally accept goods and services,           budgeted for.
  or review expenses charged by contractors
  (Finding B).
                                                         Management Comments and
 DOD officials did not ensure that the
  contractors were entitled to the $47.9 million         Our Responses
  paid on the CNTPO indefinite-delivery,                 We received comments from Under Secretary of
  indefinite-quality task orders (Finding C).            Defense (Comptroller)/Chief Financial Officer;
 CNTPO officials had four potential Purpose             Defense Contract Audit Agency; Deputy Assistant
  Statute violations, which could result in              Secretary of Defense for Counternarcotics and
  potential Antideficiency Act violations                Global Threats; and SMDC. Many of the
  amounting to approximately $20.5 million               comments from SMDC were generally
  (Finding D).                                           nonresponsive or require additional clarification.
                                                         Please see the recommendations table on the back
What We Recommend                                        of this page.
 The Deputy Assistant Secretary for Procurement,
  Assistant Secretary of the Army (Acquisition,


                                                     i
   Report No D-2009-109 (Project No. D2008-D000AS-0255.000)        September 25, 2009

Recommendations Table
         Management              Recommendations             No Additional Comments
                                 Requiring Comment           Required
Under Secretary of Defense                                   D.1
(Comptroller)/Chief Financial
Officer
Director, Defense Contract                                   C.1
Audit Agency
Deputy Assistant Secretary of    D.2
Defense for Counternarcotics
and Global Threats
Deputy Assistant Secretary for   A.1
Procurement, Assistant
Secretary of the Army
(Acquisition, Logistics, and
Technology)
Director, U.S. Army Space and    A.2.a, A.2.b.1-A.2.b.9,     A.2.b.10, B.4, B.5, and C.2.b
Missile Defense                  A.2.b.11-A.2.b.16, B.1,
Command/Army Forces              B.2, B.3, B.6, C.2.a, and
Strategic Command,               C.2.c
Contracting and Acquisition
Management Office

Please provide comments by October 26, 2009.




                                             ii
Table of Contents

Introduction                                                                 1

       Objective                                                             1
       Background                                                            1
       Review of Internal Controls                                           2

Finding A. Contract Management                                               3

       Management Comments on the Finding and Our Response                   11
       Recommendations, Management Comments, and Our Response                12

Finding B. Contract Surveillance                                             24

       Management Actions Taken                                              27
       Management Comments on the Finding and Our Response                   27
       Recommendations, Management Comments, and Our Response                28

Finding C. Contractor Billing                                                32

       Management Comments on the Finding and Our Response                   37
       Recommendations, Management Comments, and Our Response                37

Finding D. Potential Antideficiency Act Violations                           41

       Management Comments on the Finding and Our Response                   46
       Recommendations, Management Comments, and Our Response                47

Appendices

       A. Scope and Methodology                                              50
       B. Management Comments on Finding D and Our Response                  53

Management Comments

       Under Secretary of Defense (Comptroller)/Chief Financial Officer      55
       Defense Contract Audit Agency                                         58
       Deputy Assistant Secretary of Defense for Counternarcotics
          and Global Threats                                                 60
       U.S. Army Space and Missile Defense Command/Army Forces
          Strategic Command, Contracting and Acquisition Management Office   72
Introduction
Objective
Our overall audit objective was to determine whether DOD officials properly managed
and administered the contracts supporting the DOD Counter Narcoterrorism Technology
Program Office (CNTPO). Specifically, we determined whether DOD officials complied
with Federal and DOD policy for those contracts. See Appendix A for a discussion of the
scope and methodology related to the objectives. We plan to conduct a follow-on audit to
conduct follow-up and review task orders awarded after our review.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan.”
Section 842 requires thorough investigation and auditing to identify potential waste,
fraud, and abuse in the performance of DOD contracts, subcontracts, and task and
delivery orders for the logistical support of coalition forces in Iraq and Afghanistan.
Further, section 842 requires thorough investigation and auditing of Federal agency
contracts, subcontracts, and task and delivery orders for the performance of security and
reconstruction functions in Iraq and Afghanistan. We reviewed task orders under
contracts W9113M-07-D-0005, W9113M-07-D-0006, W9113M-07-D-0007,
W9113M-07-D-0008, and W9113M-07-D-0009 for support provided in Afghanistan as
well as other locations.

Background
According to officials from CNTPO, their mission is to develop, deploy, and provide
technology and acquisition solutions to engage, disrupt, and deter drug and
narcoterrorism operations around the world. CNTPO provides its services to law
enforcement, Defense and civilian agencies, and partner nations participating in the effort
against drugs and narcoterrorism. The Naval Surface Warfare Center, Dahlgren Division
is the Executive Agent for CNTPO, which is chartered by the Deputy Assistant Secretary
of Defense for Counternarcotics and Global Threats. The Deputy Assistant Secretary of
Defense reports to the Under Secretary of Defense for Policy.

On behalf of CNTPO, officials from the U.S. Army Space and Missile Defense
Command/Army Forces Strategic Command (SMDC), Contracting and Acquisition
Management Office awarded indefinite-delivery, indefinite-quantity (IDIQ) contracts on
August 24, 2007. The CNTPO IDIQ contracts have a $15 billion ceiling with a 5-year
period of performance, composed of a base year and 4 option years. SMDC contracting
officials issued the IDIQ contracts to five prime contractors: Blackwater Lodge and
Training, Inc. (Blackwater); Lockheed Martin Integrated Systems, Inc. (Lockheed
Martin); TASC, Inc. (TASC); Raytheon Technical Services Company (Raytheon); and
ARINC Engineering Services, LLC (ARINC).




                                             1
As of March 12, 2009, SMDC contracting officials issued 80 task orders potentially
worth about $1.2 billion. We reviewed 35 of the 80 task orders, totaling approximately
$98.8 million, issued on or before August 16, 2008. For specific details regarding the task
orders reviewed, see Appendix A.

The CNTPO IDIQ contracts allow for three types of task order awards—firm-fixed-price,
level-of-effort; cost-plus-fixed-fee; and cost-reimbursable (cost)—which may be used in
combination for a task order. According to the task orders, the contractors are required to
provide services, materials, and critical equipment in diverse locations such as
Southwest Asia,1 Trans-Sahara,2 and Colombia. Specifically, the contractors will provide
services in three main areas: technology development and application; training,
operations, and logistics support; and professional and executive support. SMDC
contracting officials allowed the contractors to charge services using 81 labor categories
with established labor rates.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for SMDC. SMDC did not have adequate internal controls for managing and
administering CNTPO IDIQ contracts. Specifically, SMDC contracting officials did not
properly complete training requirements; maintain complete contract files; use
firm-fixed-price, level-of-effort, or cost contracts; develop quality assurance surveillance
plans; or designate trained contracting officer’s representatives for task orders. In
addition, CNTPO officials did not conduct proper contract surveillance or properly fund
task orders. For specific results of these weaknesses, see findings A, B, C, and D of this
report. Implementing all recommendations will resolve the identified weaknesses. We
also recommend that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer request the Under Secretary of Defense for Policy to conduct an initial review of
the four potential Antideficiency Act violations. We will provide a copy of this report to
the senior official responsible for internal controls in the Department of the Army and the
Office of the Under Secretary of Defense for Policy.




1
  According to task orders, the Southwest Asia region consisted of Pakistan, Afghanistan, Azerbaijan, and
Kyrgyz Republic.
2
  According to task orders, the Trans-Sahara region consisted of Chad, Mali, Mauritania, Morocco, Niger,
Senegal, Nigeria, Tunisia, and Libya.


                                                    2
Finding A. Contract Management
SMDC contracting officers and the contracting officer’s representatives (CORs) did not
properly manage the 35 task orders reviewed, valued at $98.8 million. Specifically, the
contracting officers did not do the following:

      Maintain complete contracting files or require all parties involved to sign
       memoranda of agreements.
      Properly use firm-fixed-price contract line items for 28 task orders valued at
       $32.5 million for de facto cost-type contracts.
      Properly use firm-fixed-price contract line items in 10 task orders for
       $16.1 million to buy commercial items; instead they used cost-plus-fixed-fee
       contract line items and could waste about $439,000.
      Properly exercise options for four task orders.
      Properly identify or manage Government-furnished property by requiring
       accountability for an undeterminable quantity of Government property including
       personal locator beacons, night-vision goggles, and encryption equipment.
      Obtain a Theater Business Clearance before contract award for six task orders
       from the Joint Contracting Command for Iraq/Afghanistan in Afghanistan.

SMDC contracting officers did not properly manage CNTPO IDIQ contracts because the
contracting officers were not properly trained. Inadequate contract management increases
the chance that policies will not be followed and laws will be broken. Additionally, the
lack of property identification and management reduces Government’s ability to
determine the whereabouts and condition of Government-furnished property, increasing
the likelihood of loss of Government funds. As a result, the goods and services received
through these 35 task orders might not meet the needs of the customer or end user,
hindering efforts to deter narcoterrorism.

Management of Task Orders
SMDC contracting officials and CORs did not properly manage the 35 task orders
totaling approximately $98.8 million that we reviewed. Of the $98.8 million,
approximately $32.5 million was for firm-fixed-price, level-of-effort contract line items;
the remaining $66.3 million was for cost or cost-plus-fixed-fee contract line items.
Specifically, contracting officers did not maintain complete contract files; require all
parties sign memoranda of agreements; adequately use firm-fixed-price, level-of-effort or
cost-plus-fixed-fee or IDIQ contracts, or complete the required training for contracting
officers. Additionally, contracting officers improperly exercised options and extended
contracts beyond the timeframes stipulated in the contract.

Complete Contract Files
Federal Acquisition Regulation (FAR) Subpart 4.8, “Government Contract Files,”
September 28, 2006, identifies requirements for establishing and maintaining contract
files. Specifically, FAR Subpart 4.8 states that there must be a contract file for each
contract and the contract file should contain the records of all contractual actions taken.


                                              3
Defense Federal Acquisition Regulation Supplement (DFARS) Subpart 204.8, “Contract
Files,” January 24, 2008, requires that official contract files consist of original,
authenticated, or conformed copies3 of contractual instruments, as well as signed or
official copies of correspondence, memoranda, and other documents. Each contract file
should provide a complete background for decision making, actions taken, and reviews
and investigations, as well as to furnish essential facts in case of litigation or
congressional review.

However, SMDC contracting officials did not maintain complete contract files. As of
August 28, 2008, original contract modifications were missing from the contract files for
9 of the 35 task orders reviewed. During our site visit to SMDC, contracting officials
only provided hard copy contracting files and informed the audit team that those hard
copy files were complete. All the missing modifications were dated and issued before our
site visit in August 2008 and should have been included in the contract files. We
identified the missing modifications by comparing the contracting officer’s original files
to COR files and funding documents. For example, SMDC contracting officials did not
include modification 2 for task order W9113M-07-D0005-0005 or modification 2 for task
order W9113M-07-D0007-0006. According to contracting officials, they did not maintain
the contract files because they were more focused on supporting the warfighter.
Contracting officials should maintain complete contract files in accordance with Federal
and DOD requirements for all IDIQ contracts and task orders.

Memoranda Signatures
Both FAR and DFARS require that the contract file include signed copies of contractual
instruments. However, the contracting officer did not require that all parties sign
memoranda of agreement. Specifically, the letters designating the Defense Contract
Management Agency officials to administer the CNTPO contracts were not signed by any
Defense Contract Management Agency officials. The contracting officers also did not
require that all parties sign 12 of the 35 task order authorization letters. SMDC required
that legal counsel sign the authorization letter when the task order amount exceeded
$500,000. For instance, the contracting officer did not ensure that the SMDC legal
counsel signed the authorization letter for task order W9113M-07-D0005-0002. The
authorization letters verified that the customer provided the appropriate funding for the
contract and that CNTPO officials had the authority to procure the goods or services
specified in the contract.

SMDC contracting officials should implement procedures to ensure that CNTPO contract
files comply with FAR Subpart 4.8 and DFARS 204.802 requirements. SMDC officials
should also ensure that all parties involved in memoranda sign the documentation to
minimize the possibility of disputes.




3
  DFARS 204.802 defines conformed copies as being complete and accurate, including the date signed and
the names and titles of those who signed the documents.


                                                  4
Firm-Fixed-Price Contracts
SMDC contracting officials did not properly award firm-fixed-price, level-of-effort
contract line items for 28 of the 35 task orders we reviewed worth approximately
$32.5 million. Rather, contracting officials should have issued a cost-type contract.
According to FAR Subpart 16.2, “Fixed-Priced Contracts,” March 2005, a firm-fixed-
price contract establishes a price in the contract that is not subject to any adjustment
during the contractor’s performance. Firm-fixed-price contracts place maximum risk and
full responsibility for costs and profits on the contractor, forcing the contractor to control
costs and perform effectively. FAR Subpart 16.2 also states that firm-fixed-price
contracts should be used for the acquisition of supplies or services when the contracting
officer can reasonably establish fair and reasonable prices.

The SMDC contracting officers issued task orders that primarily used firm-fixed-price,
level-of-effort type contracts that funded narcoterrorism services. FAR 16.207,
“Firm-fixed-price, level-of-effort term contracts” states that a firm-fixed-price,
level-of-effort contract requires the contractor to provide a specified level of effort over a
stated period. The contractor receives a fixed dollar amount based on the effort expended
and not on the results achieved. Lastly, any contract over $100,000 must be approved in
writing by the head of contracting.

However, the contracting officer stated that the “level of effort” identified in the 28 task
orders was based on total hours billable at established labor rates. The task orders stated
that performance should not exceed the number of hours identified in the task order.
Instead, the task orders should have identified a fixed dollar amount as required by
FAR 16.207. In doing this, the contractor billed the Government on a cost basis instead of
for a fixed price.

We asked the SMDC contracting officers their reasons for awarding firm-fixed-price,
level-of-effort contracts for services billed by the hour. The SMDC contracting officials
stated that they did so because these contracts provide the contractors with maximum
flexibility to perform the services. However, an SMDC contracting officer contradicted
that statement when he stated that firm-fixed-price, level-of-effort contracts “were not the
type of contracts the contracting officers wanted or needed.” Another SMDC official
stated they (SMDC contracting officers) did not want to use cost-type contracts, because
those contracts entailed increased oversight and cost audits. In using firm-fixed-price,
level-of-effort contracts, contracting officials circumvented the FAR to avoid the
oversight reviews conducted by the Defense Contract Audit Agency and other
requirements for cost, time-and-materials, or labor-hour contracts. Lastly, on
November 3, 2006, the Deputy Assistant Secretary of the Army for Policy and
Procurement approved the acquisition strategy for the overall IDIQ contracts. SMDC
contracting officials stated that this approval allowed them to use firm-fixed-price,
level-of-effort contracts.

Additionally, 13 of 28 task orders contained firm-fixed-price, level-of-effort contract line
items that exceeded $100,000; however, CNTPO did not include an approval document
in the contract file. The approval should have been signed by the head of contracting.


                                              5
SMDC contracting officers should remove the firm-fixed-price, level-of-effort
requirements from current task orders that should have been awarded as a cost contract
and include a written determination for the change in the contract file. The SMDC
contracting officers should also include an approval document in the contract files for
task orders exceeding $100,000.

Cost-Plus-Fixed-Fee Contracts
FAR Subpart 16.3, “Cost Reimbursement Contracts,” June 14, 2007, states that a
cost-plus-fixed-fee contract is a type of cost-reimbursement (cost) contract that allows a
fee being paid to a contractor to remain fixed. The fixed fee does not vary in relation to
the actual cost, but may be adjusted because of changes in the work performed under the
contract. Acquisition of commercial items under a cost-plus-fixed-fee contract is strictly
prohibited. Instead, FAR Subpart 12.2, “Special Requirements for the Acquisition of
Commercial Items,” February 12, 2007, requires that agencies use firm-fixed-price
contracts to acquire commercial items. FAR Subpart 2.1 defines commercial items as
goods used by the public or a nongovernmental entity that either have been offered for
sale, offered for lease, or licensed, or have been sold, leased, or licensed to the public or a
nongovernmental entity. The use of firm-fixed price contracts when purchasing a
commercial item is required to avoid fees contractors can charge the Government for
procuring items that can be purchased by the public.

However, SMDC contracting officers used cost-plus-fixed-fee contract line items
incorrectly for 10 of the 35 task orders we reviewed. Specifically, the contracting officer
used the contract line items to acquire commercial items totaling approximately
$16.1 million for ground sensors, replacement parts, laptops, cell phones, and off-road
vehicles. Of the $16.1 million, the contracting officer authorized the contractor to receive
$439,000 in fees for the purchase of those commercial items. SMDC contracting officials
stated that because they did not consider the items acquired through the 10 task orders as
commercial items, the rules for purchasing a commercial item did not apply. We disagree
with SMDC contracting officials that the items were not commercial. For instance, some
of the items were available for the public to purchase from the manufacturer or a
supplier; other items were commercial items available through a General Services
Administration, Federal supply schedule. Consequently, SMDC contracting officials
could waste approximately $439,000 by paying unnecessary fees to contractors for
commercial items. Contracting officers should request a refund of any fee paid for the
procurement of the commercial items.

Additionally, FAR 16.306, “Cost-Plus-Fixed-Fee Contracts,” states that no cost-type
contracts, to include cost-plus-fixed-fee contracts, should be used unless the Government
conducts appropriate surveillance for these contracts. However, SMDC contracting
officers did not ensure adequate surveillance for the 35 task orders reviewed. Because of
this, contracting officers should not award task orders with cost or cost-plus-fixed-fee
contract line items until they can demonstrate that they can provide adequate surveillance
using quality assurance surveillance plans (QASPs). Contracting officers should use only
cost-type contract line items when the necessary controls are in place and adequate



                                               6
contract surveillance can be provided for these task orders. See Finding B for the
discussion of the contract surveillance for the 35 task orders reviewed.

Indefinite-Delivery, Indefinite-Quantity Task Order
FAR Subpart 16.5, “Indefinite-Delivery Contracts,” September 28, 2006, states that an
IDIQ contract provides for an indefinite quantity, within stated limits, of supplies or
services during a fixed period. The Government places orders through this contract for
individual requirements. FAR Subpart 16.5 also states that individual orders under
indefinite-delivery contracts must clearly describe the services being performed or
supplies being delivered. Orders placed under indefinite-delivery contracts must contain
the contract item number for supplies and services, and the description, quantity, and unit
price or estimated cost. However, the SMDC contracting officer issued task order
W9113M-07-D-0006-0004 to purchase an indefinite quantity of tracking devices. The
task order’s performance work statement included an option to procure a minimum of
10 units, up to an indefinite quantity, but no unit price for the tracking devices was stated
in the task order. The SMDC contracting office did not comply with FAR Subpart 16.5
requirements. The contracting office should modify task order
W9113M-07-D-0006-0004 to conform to FAR Subpart 16.5 and should not issue any
other task orders that deviate from these FAR requirements.

Options and Extensions
FAR Subpart 17.2, “Options,” June 30, 2007, states that when exercising an option, the
contracting officer must provide written notice to the contractor within the period
specified in the contract. FAR Subpart 17.2 also states that before exercising an option,
the contracting officer must make a written determination for the contract file. The
written determination should state whether exercising the option is in accordance with the
terms of the contract. Even then, the contracting officer may exercise an option only after
determining that funds are available. The CNTPO IDIQ contracts included yet another
requirement, FAR clause 52.217-8, “Option to Extend Services,” November 1999. It
requires that the contracting officer specify the period for which the contracting officer
may extend the contract, no longer than 6 months, in writing to the contractor.

On or around March 28, 2008, SMDC contracting officials issued a modification to the
IDIQ contracts to incorporate FAR clause 52.217-9, “Option to Extend the Term of the
Contract,” March 2000. The modification allows SMDC contracting officers to extend
the terms of the contract by written notice to the contractor within 7 days of contract
expiration, provided that the Government gives a preliminary written notice of its intent
to extend at least 10 days before the contract expires. The total duration of the contract,
including any options exercised under this clause, cannot exceed 60 months.

Of the 35 CNTPO task orders reviewed, 8 included options. SMDC contracting officials
improperly exercised option(s) on four of the eight task orders. For instance, the period of
performance for task order W9113M-07-D-0007-0003 was from September 28, 2007,
through February 27, 2008. However, SMDC contracting officials exercised the option on
February 27, 2008, 1 day before the option period began. The contracting officer also did



                                              7
not include a written determination in the contract file to document whether the option was
exercised in accordance with the terms of the contract or that funding was available.

Additionally, SMDC contracting officials did not properly extend one task order.
Specifically, task order W9113M-07-D-0007-0004 had a period of performance from
December 12, 2007, to March 11, 2008. However, on March 21, 2008, SMDC
contracting officers issued a modification extending the period of performance through
July 2008. The contracting officer extended the contract 10 days after the contract period
of performance concluded and did not provide a written notice to the contractor, violating
FAR clause 52.217-8.

SMDC contracting officials should properly exercise options and extend contracts in
accordance with the FAR. Without following the FAR, the contracting officer does not
provide the contractor with the proper notification and may cause delays, increased costs
or disagreements.

Government-Furnished Property
FAR Subpart 45.1, “General,” June 14, 2007, defines Government-furnished property as
property possessed or acquired by the Government and subsequently furnished to the
contractor for performance of a contract. FAR Subpart 45.2, “Solicitation and Evaluation
Procedures,” June 14, 2007, requires contracting officers to identify all
Government-furnished property anticipated in all solicitations. The property listing
should include name, description, manufacturer, model number, national stock number (if
applicable), quantity, unit acquisition cost, and a unique item identifier. Moreover, FAR
clause 52.245-1, “Government Property,” June 2007, states that the Government will
deliver the property described in the contract.

Of the 35 task orders reviewed, 8 task orders contained Government-furnished property.
However, the SMDC contracting officers did not include a detailed listing of all
Government-furnished property in the task orders. The contracting officers also did not
properly manage the Government-furnished property provided to contractors.
Specifically, the contracting officers either did not maintain any property records or they
did not maintain complete property records for CNTPO property in the contract files. The
property included personal locator beacons, night-vision goggles, and encryption
equipment. According to DOD Manual 4100.39-M, “Federal Logistics Information
System,” volume 10, “Multiple Application References, Instructions, Tables, and Grids,”
table 61, “Controlled Inventory Item Codes,” April 2009, personal locator beacons, night-
vision goggles, and encryption equipment are considered sensitive items requiring a high
degree of protection and control.

While Government-furnished property was discussed in the eight task orders, the
contracting officer did not include specific information about the items being furnished,
such as serial, part, or inventory numbers. DOD Instruction 5000.64, “Accountability and
Management of DOD-Owned Equipment and Other Accountable Property,” November 2,




                                            8
2006, requires that DOD Components establish records and maintain accountability for
Government property furnished to contractors.4 Accountable property records must
include the current status and location of the property. At a minimum, an accountable
property system of record should include:

        name, part number, and description;
        quantity and status of the property;
        unique item identifier;
        location of property; and
        transaction dates.

Further, SMDC contracting officials did not formally designate the Defense Contract
Management Agency to conduct administrative oversight of the CNTPO IDIQ task
orders. The administrative oversight could include property management such as analysis
of a contractor property management system, conducting Government property
inventories, and ensuring contractual compliance. Although the contracting officer
prepared a memorandum of agreement for Defense Contract Management Agency
officials to sign, he stated that he did not send the agency the memorandum to formalize
the agreement. Additionally, the contracting officer stated that he had not been in contact
with anyone from the Defense Contract Management Agency to coordinate any work on
the contracts prior to the audit.

Without adequate surveillance, Government-furnished property could be lost or
misplaced, causing the Government to lose money and time. In addition, the loss of
controlled items such as night-vision goggles could jeopardize national security5 and the
effectiveness of counter narcoterrorism missions around the world.

Contracting officials, with the help of the CORs, should identify all Government-
furnished property in the solicitation for each task order as required by FAR
Subpart 45.2. The contracting officers should also use an approved system to track and
monitor Government-furnished property. This system would enable DOD officials to
track the location, quantity, and status of the Government-furnished property.
Additionally, contracting officers should formalize an agreement with the Defense
Contract Management Agency to perform administrative oversight of the CNTPO IDIQ
task orders and request that they appoint a certified property administrator to conduct an
inventory of Government property. The contracting officer should require the property
administrator to conduct at least semiannual reviews to ensure the accuracy of the records
for Government property in the custody of contractors. Correct property identification is
essential to avoid loss or misuse of Government-furnished property.




4
  DOD Instruction 5000.64, states that all DOD Components are required to establish records and maintain
accountability for property of any value, furnished to contractors as Government-furnished property.
5
  DOD Instruction 5000.64 requires that controlled items be protected in the interest of national security.


                                                     9
Theater Business Clearance Memoranda
SMDC contracting officials did not obtain Theater Business Clearance for six of the
seven task orders performed in Afghanistan, and none had a letter assigning contract
administration to the Joint Contracting Command for Iraq/Afghanistan. According to the
Under Secretary of Defense for Acquisition, Technology, and Logistics Memorandum,
“Procedures for Contracting, Contract Concurrence and Contract Oversight for Iraq and
Afghanistan,” October 19, 2007, DOD contracting officers must request that the
Commander, Joint Contracting Command for Iraq/Afghanistan approve statements of
work for the delivery of supplies and services in Iraq and Afghanistan before contract
award.

Another Under Secretary of Defense for Acquisition, Technology, and Logistics
Memorandum, “Retroactive Iraq/Afghanistan Contract Compliance and Assignment of
Contract Administration,” December 20, 2007, requires that contracting officers submit a
Theater Business Clearance memorandum package to the Joint Contracting Command for
Iraq/Afghanistan for any contract they plan to award that includes personnel assigned or
delivery of materiel to Iraq or Afghanistan after April 1, 2008. The December 20, 2007,
memorandum also requires that the contracting officer include a letter in the package
assigning contract administration to the Joint Contracting Command for Iraq/Afghanistan
for any portion to be performed in Iraq or Afghanistan. According to the memorandum,
the Theater Business Clearance enables the Commander, Joint Contracting Command for
Iraq/Afghanistan to maintain overall responsibility for contract administration for work in
the commander’s area of responsibility.

The contracting officer should submit a Theater Business Clearance memorandum
package for all contracts performed in Iraq and Afghanistan and assign contract
administration to the Joint Contracting Command for Iraq/Afghanistan. In addition, the
contracting officers should modify all existing task orders with Theater Business
Clearances to include all contract clauses required by the Under Secretary of Defense for
Acquisition, Technology, and Logistics memoranda.

Need for Training
SMDC contracting officers did not properly manage the CNTPO IDIQ contracts or
Government-furnished property because contracting officers were not properly trained.
The Under Secretary of Defense for Acquisition, Technology, and Logistics issued a
policy memorandum, “Continuous Learning Policy for the DOD Acquisition,
Technology, and Logistics Workforce,” September 13, 2002, that requires contracting
officers to stay current in acquisition, technology, and logistics initiatives, as well as in
leadership and management. Additionally, contracting officers must obtain experience in
their area of expertise and complete certification training. Army guidelines encourage
that contracting officers obtain 40 continuous learning points annually, but requires the
contracting officers to complete 80 continuous learning points within a 2-year period.

We reviewed the training records for the four SMDC contracting officers involved with
the CNTPO IDIQ contracts from October 1, 2006, through September 30, 2008. Three of



                                             10
four contracting officers took only one contract-related training during FY 2007 through
FY 2008. The training taken by the contracting officers was a Structuring Contracts
course, worth two continuous learning points. The remaining contracting officer had no
contract-related training in FY 2007 or FY 2008. However, contracting officials
maintained that they received the appropriate continuous learning points in accordance
with Federal and DOD Policy. Even additional training information SMDC officials
provided did not identify the courses they attended from FY 2007 through FY 2008. It is
the contracting officers’ responsibility to complete 80 continuous learning points every
2 years to stay current in their functional areas. The Director, SMDC, Contracting and
Acquisition Management Office should conduct an annual training review of all
warranted contracting officers to ensure that they receive the appropriate training to
maintain their skills. Based on the significant issues identified, the Deputy Assistant
Secretary of Defense for Procurement, Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) should also conduct an administrative review of the
contracting officers that provided management oversight of the CNTPO IDIQ contracts
to determine whether personnel action is warranted for deficiencies identified.

Conclusion
Lack of contract management increases the chance that policies will not be followed and
laws will be broken. Additionally, the lack of property identification and management
reduces Government’s ability to determine the whereabouts and condition of the
Government-furnished property, potentially causing millions of dollars to be wasted. The
goods and services received through these 35 task orders might not meet the needs of the
customer or the end user, thereby hindering efforts to deter narcoterrorism. Additionally,
equipment used for counter narcoterrorism could be lost or end up in the wrong hands.

Management Comments on the Finding and
Our Response
Management Comments
The Director, Contracting and Acquisition Management Office, stated that the support
requirements for CNTPO were greater than estimated at contract award. She explained
that the contracting office did not have enough personnel to adequately support a quick
rate of contracting for a program as critical as CNTPO. The Director stated that the
material weaknesses identified in the report were directly attributable to staffing
shortfalls. She stated that recruitment actions have been initiated and that enough staff
will be on board to execute program requirements by second quarter FY 2010.

Our Response
Although we understand that a lack of contracting personnel was an issue, the
weaknesses reported were not all caused by the lack of contracting personnel.
Specifically, the Director must ensure that contracting officers are trained and implement
sound contracting practices in all CNTPO task orders. Additionally, contracting officers
must ensure that staff members are sufficiently trained to execute firm-fixed-price and



                                            11
cost-plus-award-fee contracts and manage and maintain proper control over
Government-furnished property.

Recommendations, Management Comments, and
Our Response
Redirected, Revised, Deleted, and Renumbered
Recommendations
Based on comments from the Director, Contracting and Acquisition Management Office,
we redirected Recommendation A.1 to the Deputy Assistant Secretary for Procurement,
Assistant Secretary of the Army (Acquisition, Logistics, and Technology). We redirected
Recommendation A.1 to ensure that an administrative review of contracting officers
overseeing CNPTO task orders is conducted. As a result of redirecting that
recommendation, draft report Recommendation A was split and renumbered as
Recommendations A.1 and A.2.

We revised draft report Recommendation A.3.g to final report Recommendation A.2.b.7
because we intended for the Director, Contracting and Acquisition Management Office,
to confirm that the Government, not the contractors, has adequate surveillance in place
before future awards of cost-type task orders. We also revised draft report
Recommendation A.3.p to final report Recommendation A.2.b.16 because we agree with
the Director that a more appropriate recommendation would be to review the terms of the
basic contracts, rather than the task orders, to ensure appropriate clauses and contract
terms are included for overseas support requirements.

As a result of management comments, we deleted draft report Recommendation A.3.q,
which was covered under final report Recommendation A.2.

A.1. We recommend that the Deputy Assistant Secretary for Procurement, Assistant
Secretary of the Army (Acquisition, Logistics, and Technology) conduct an
administrative review of the contracting officers and their specialists who oversaw
the management of the DOD Counter Narcoterrorism Technology Program Office
indefinite-delivery, indefinite-quantity contracts from the U.S. Army Space and
Missile Defense Command/Army Forces Strategic Command, Contracting and
Acquisition Management Office and take any personnel action warranted for
deficiencies identified. A copy of the report should also be provided to the
Department of Defense Office of Inspector General.

Management Comments
The Director, Contracting and Acquisition Management Office, did not agree. She stated
that the audit report did not identify specific infractions that warrant disciplinary action,
nor has she observed such infractions. The Director suggested that we revise the
recommendation to require that she assess, acquire, and train the resources necessary to
effectively and efficiently support the CNTPO contracts. The Director acknowledged that
the contracting staff did not keep pace with the workload of the CNTPO contracts. She


                                             12
stated that recruitment actions were underway and that by second quarter FY 2010
adequate staff would be hired.

Our Response
As a result of the Director’s comments, we redirected draft report Recommendation A.1
to the Deputy Assistant Secretary for Procurement, Assistant Secretary of the Army
(Acquisition, Logistics, and Technology). We request that the Deputy Assistant Secretary
for Procurement provide comments in response to the final report.

A.2. We recommend that the Director, U.S. Army Space and Missile Defense
Command/Army Forces Strategic Command, Contracting and Acquisition
Management Office:

       a. Conduct an annual training review of all warranted contracting officers to
ensure that they receive training required by the Under Secretary of Defense for
Acquisition, Technology, and Logistics policy memorandum, “Continuous Learning
Policy for the DOD Acquisition, Technology, and Logistics Workforce,”
September 13, 2002.

Management Comments
The Director, Contracting and Acquisition Management Office, agreed. She stated that
SMDC conducts training reviews at least semiannually. The Director stated that the
SMDC contracting officers have the certifications required for their position and have
satisfied the continuous learning requirements. The Director stated that training records
clearly reflect the training contracting officers completed. Lastly, the Director stated that
the contracting office has identified additional contracting courses to improve the
personnel’s performance. She stated that contracting officers would complete the training
courses by third quarter FY 2010.

Our Response
The Director, Contracting and Acquisition Management Office, agreed; however, it is not
clear what SMDC based its semiannual review on since we made repeated requests for
the training records and certificates discussed in the Director’s comments. However, the
contracting officers were not able to provide training records or certificates for the
courses they attended. The only document contracting officials could provide was a
summary report of their training showing total hours. The summary report showed that
one of the four contracting officers had no continuous learning points, and the remaining
three contracting officers had only two continuous learning points. Therefore, we request
that the Director provide in response to the final report copies of the detailed training
reports and certificates showing that SMDC contracting officers overseeing CNTPO task
orders were trained in accordance with DOD policy.




                                             13
       b. Instruct the contracting officers to:

             (1) Maintain proper contract files in accordance with Federal
Acquisition Regulation Subpart 4.8, “Government Contract Files,” and Defense
Federal Acquisition Regulation Supplement Subpart 204.8, “Contract Files.”

Management Comments
The Director, Contracting and Acquisition Management Office, agreed. She stated that
the limited personnel resources required that contracting officers focus on supporting the
warfighter rather than on maintaining contract files. The Director stated that during our
visit at fiscal year end, contracting officers were processing urgent requirements
supporting the warfighter, leaving the filing of hard copy documents to be completed.
The Director stated that contractual documents were maintained in the contracting
office’s contract writing system. The Director stated that we made no requests to review
files located in the contract writing system. The Director stated that, by first quarter
FY 2010, her office would conduct an inventory of all files to ensure proper labeling and
completion. The Director stated that personnel in her office would use a checklist to
ensure consistency in contract file maintenance.

Our Response
The Director, Contracting and Acquisition Management Office, agreed but still has not
taken appropriate actions to ensure that contracting files comply with the FAR. The
contract writing system is not a contract storage system and should not be used as such.
At the time of our visit, we requested that the contracting officers provide us with the
complete contract files for the CNTPO task orders. Contracting officials did not alert the
auditors that contractual documents were located elsewhere. We request that the Director
in response to the final report provide a copy of the task order file checklist her staff will
use during their inventory of CNTPO contract files.

            (2) Require that all parties named in memoranda sign the
documentation.

Management Comments
The Director, Contracting and Acquisition Management Office, agreed that DFARS
subpart 204.8 requires that official contract files contain original copies of contractual
instruments and signed or official copies of correspondence memorandum and other
documents. She stated that the purpose of the Task Order Authority Memorandum of
Record (authority memorandum) was to document the statutory authority for the
requirement presented. The Director stated that the missing signature on some authority
memoranda was the “reviewed by” signature of SMDC legal counsel. The Director
explained that the legal counsel review was to document that the task order met legal
requirements. She stated that legal counsel sometimes completed the task order reviews
electronically and did not always sign an authority memorandum. The Director stated that
the acceptance of the authority memorandum was inferred in the legal counsel’s legal
sufficiency statement. The Director stated that requiring legal counsel to sign authority



                                              14
memoranda is redundant and that the signature line will be removed from future authority
memoranda.

The Director also stated that a blanket delegation was provided to the five CNTPO IDIQ
contractors at the time of contract award. She stated that SMDC executed separate
delegations for task orders to be performed outside the continental United States. The
Director stated that the missing portion of the task order delegation was the
acknowledgment by the Defense Contract Management Agency administrative
contracting officer in Afghanistan. The Director stated that SMDC has tried to get the
Defense Contract Management Agency to acknowledge its administrative duties but has
not fully reached an agreement. The Director stated that SMDC plans to have the
administrative contracting officers issue subdelegations to Defense Contract Management
Agency officials located near the place of CNTPO task order performance. The Director
stated that she continues to work with the Defense Contract Management Agency to
execute appropriate subdelegations.

Our Response
The Director’s decision to eliminate the requirement for legal counsel to sign memoranda
documenting legal review of all task orders over $500,000 weakens internal controls. If
the legal counsel review is required to ensure legal sufficiency, the signature confirms the
review was completed by the appropriate official. We believe that this is a necessary step
in the task order review process to ensure that a task order package electronically sent to
legal counsel for review is not overlooked. We request that the Director reconsider her
planned action, to remove the legal counsel signature line from authority memoranda for
CNTPO task orders, and provide comments in response to the final report.

As for delegation of authority, we made repeated requests to SMDC contracting officers
for the designation letters signed by the administrative contracting officer. The
contracting officer responsible for obtaining the signatures stated that he believed that
typing the Defense Contract Management Agency’s name and address on the front of the
contract meant the delegation was formalized. We also request that the Director include
in her response signed copies of the formal designation of the Defense Contract
Management Agency as administrator of CNTPO task orders for the five contractors.

              (3) Remove the firm-fixed-price, level-of-effort requirements from
task orders that should be awarded as cost contracts and include a written
determination for the change in the contract file.

Management Comments
The Director, Contracting and Acquisition Management Office, stated that SMDC agrees
that the CNTPO task orders executed as firm-fixed-price, level-of-effort were
administered as labor-hour contracts. The Director stated that the acquisition planning
team deemed the firm-fixed-price, level-of-effort task orders as labor-hour contracts
because the requirements were not quantifiable and that the majority of the work would
be preformed outside of the continental United States. The Director agreed that
firm-fixed-price contracts place the burden of risk on the contractor. She also stated that


                                            15
for firm-fixed-price, level-of-effort contracts, the contractor has to provide only the
agreed upon labor hours at the negotiated lump-sum price. Under these contracts, the
Director stated that the Government cannot influence the execution of a firm-fixed-price,
level-of-effort task order. She stated that labor-hour contracts, with established labor-hour
rates and adequate competition, provide a better solution for the CNTPO IDIQ contracts
than do firm-fixed-price, level-of-effort, or cost-plus contract types. The Director stated
that personnel in her office plan to modify the basic contracts to execute task orders as
firm-fixed-price to the greatest extent possible. She stated that she planned to complete
the changes by the end of FY 2009.

Our Response
Although the Director, Contracting and Acquisition Management Office, acknowledged
that the CNTPO IDIQ task orders were administered as labor-hour contracts, she did not
discuss the specific changes she planned to make to the basic contracts to execute task
orders as firm-fixed-price. We request that the Director provide a copy of the changes
made to the basic contracts in response to the final report.

                (4) Include an approval document from the head of contracting in the
contract files for any task order with firm-fixed-price, level-of-effort requirements
that exceed $100,000.

Management Comments
The Director, Contracting and Acquisition Management Office, did not fully agree. She
stated that the CNTPO task orders executed as firm-fixed-price, level-of-effort were
administered as labor-hour contracts. The Director stated that the option to award
firm-fixed-price, level-of-effort task orders will be removed from the basic contract once
SMDC finalizes the terms and conditions of firm-fixed-price task orders.

Our Response
The Director, Contracting and Acquisition Management Office, did not respond to the
recommendation. Specifically, she did not state whether she would complete approval
documents for firm-fixed-price, level-of-effort task orders over $100,000 and instruct
contracting officials to include the documents in the contract files. We request that the
Director submit comments in response to the final report discussing planned action to
implement this recommendation.

              (5) Request that the contractors refund the Government any fee
received for commercial items.

Management Comments
The Director, Contracting and Acquisition Management Office, disagreed. She stated that
we misunderstood the terms of the CNTPO contracts. The Director stated that the
contracts were not categorized as commercial items or services because the
preponderance of effort identified in the acquisition strategy did not meet the definition
of a commercial item or service. The Director stated that a single task order or group of



                                             16
task orders may include some commercial items but were not categorized as such. The
Director stated that having one element of materials categorized as commercial items in a
task order would be similar to characterizing a large requirement as commercial just
because it contained a commercially available bolt. She added that the task order
requirements must be viewed as a whole and suggested that we delete the section on the
acquisition of commercial items from the report. Additionally, the Director stated that
there were no rules prohibiting a prime contractor from charging a profit on materials
provided by a subcontractor or supplier.

Our Response
While we acknowledge the comments of the Director, Contracting and Acquisition
Management Office, the contractual documents we reviewed do not support her claims.
FAR subpart 12.2 requires that agencies use firm-fixed-price contracts to acquire
commercial goods; however, SMDC contracting officers used cost-plus-fixed-fee
contract line items. The contracting officers purchased such things as ground sensors,
replacement parts, laptops, cell phones, and off-road vehicles. These items were available
for purchase from the manufacturer or available through the General Services
Administration’s Federal Supply schedule. DOD paid approximately $439,000 in fees to
CNTPO contractors for items we found to be commercial. We requested that the SMDC
contracting officers and CNTPO provide documents to support their claims that these
items were not commercial; however, we received no documents. We again request that
the Director instruct the contracting officers to initiate actions to get refunds from the
contractors for any fees received for commercial items. The Director should include her
response in comments on the final report.

             (6) Conduct a review of all task orders to identify any additional fees
paid for commercial items, and request that the contractors refund any fee paid for
the procurement of commercial items.

Management Comments
The Director, Contracting and Acquisition Management Office, disagreed. She asked that
we delete the recommendation from the final report.

Our Response
As we stated in our response to Recommendation A.2.b.5, SMDC contracting officers did
not properly implement the contract to comply with FAR subpart 12.2 to use
firm-fixed-price contracts for commercial items. Therefore, the Director should
reconsider her position and instruct the SMDC contracting officers to conduct a review of
all task orders to identify any additional fees paid for commercial items and request a
refund. We request that the Director include her response in comments on the final report.

               (7) Confirm that the Government has adequate contract surveillance
plans before awarding any future task orders with cost or cost-plus-fixed-fee
contract line items as required by Federal Acquisition Regulation Subpart 16.3,
“Cost Reimbursement Contracts.”



                                           17
Management Comments
The Director, Contracting and Acquisition Management Office, agreed in principle. She
stated that the report did not provide evidence of deficiencies in the quality control
programs or the cost accounting system of CNTPO contractors. The Director also stated
that the contractor’s quality control programs were evaluated as part of the source
selection process and all systems were found to be adequate. The Director requested that
we delete the recommendation from the final report.

Our Response
We intended for the Director, Contracting and Acquisition Management Office, to
confirm that the Government, not the contractor, has adequate surveillance in place
before awarding future cost type task orders. Therefore, we revised the recommendation
and request that the Director provide comments in response to the final report on the
revised recommendation.

              (8) Procure commercial items on a firm-fixed-price basis, as required
by Federal Acquisition Regulation Subpart 12.2, “Special Requirements for the
Acquisition of Commercial Items.”

Management Comments
The Director, Contracting and Acquisition Management Office, disagreed for the same
reasons she disagreed with draft report Recommendation 3.e (Recommendation A.2.b.5).
She asked that we delete the recommendation from the final report.

Our Response
While we acknowledge the Director’s comments, we did not find that the contractual
documents support her claims. FAR subpart 12.2 requires that agencies use firm-fixed-
price contracts to acquire commercial goods; however, SMDC contracting officers used
cost-plus-fixed-fee contract line items. The contracting officers purchased such things as
ground sensors, replacement parts, laptops, cell phones, and off-road vehicles. These
items were available for purchase from the manufacturer or available through the General
Services Administration’s Federal Supply schedule. We request that the Director
reconsider her position and instruct the SMDC contracting officers to use only firm-
fixed-price contracts to procure commercial items. We request that the Director include
her response in comments on the final report.

              (9) Comply with ordering requirements in Federal Acquisition
Regulation Subpart 16.5, “Indefinite-Delivery Contracts,” when issuing task orders
under indefinite-delivery, indefinite-quantity contracts.

Management Comments
The Director, Contracting and Acquisition Management Office, disagreed. She stated that
the recommendation was the same as draft report Recommendation A.3.j and requested
that we delete it from the final report.



                                           18
Our Response
This recommendation requires that contracting officers comply with FAR subpart 16.5 on
future task order awards, whereas draft report Recommendation A.3.j requires that
contracting officers modify a specific task order, W9113M-07-D-0006-0004, to comply
with the FAR. We request that the Director provide comments in response to the final
report indicating whether she plans to require compliance.

                (10) Modify task order W9113M-07-D-0006-0004 to comply with
Federal Acquisition Regulation Subpart 16.5, “Indefinite-Delivery Contracts,” and
explicitly state in the task order the number of tracking devices needed to meet
DOD Counter Narcoterrorism Technology Program Office requirements and the
cost of the tracking devices.

Management Comments
The Director, Contracting and Acquisition Management Office, agreed. She stated that
the contracting officer initially published the task order incorrectly. The Director stated
that during the solicitation process the task order requirements were revised, as evidenced
in a revised proposal submitted by the contractor. The Director stated, however, that the
contracting officer did not revise the performance work statement to reflect the changes.
The Director stated that CNTPO has received all the tracking devices required by the task
order, which will shortly be closed. The Director added that there is no benefit to
modifying the task order as it is essentially complete.

Our Response
The Director, Contracting and Acquisition Management Office comments indicate that
corrective actions were taken, and therefore, no further comments are required.

               (11) Properly exercise contract options and modifications to extend
contracts in accordance with Federal Acquisition Regulation Subpart 17.2,
“Options,” and Federal Acquisition Regulation clauses 52.217-8, “Option to Extend
Services,” and 52.217-9, “Option to Extend the Term of the Contract.”

Management Comments
The Director, Contracting and Acquisition Management Office, agreed. She
acknowledged that determinations and findings documents to support the exercise of
options were not included in the task order files. The Director stated, however, that the
actions necessary to exercise an option were executed. She explained that the options
exercised were within close proximity of the task order award, limiting the amount of any
change in the market conditions for the options exercised. The Director stated that
CNTPO and SMDC ensured that there were no changes to the task order requirement
before issuing the option. She stated that the report overstated the implications of not
providing preliminary notice of the Government’s intent to exercise an option. The
Director stated that if the options were not exercised with appropriate notice, the
contractor could request a change in the terms of the contract; however, this did not
occur. The Director also stated that once the date for exercising a task order passes, as


                                            19
happened with task order 0004 of contract W9113M-07-D-0005, the Government and the
contractor can agree to perform the work in the contract. The Director stated that SMDC
plans to include in the task order file proper determinations and findings for options
exercised on or after July 1, 2009.

Our Response
Although the Director, Contracting and Acquisition Management Office, agreed, further
action by the Director is required for this recommendation. The Director should
document in the contract file for task order 0004 of contract W9113M-07-D-0005 the
revised requirements for the tracking devices. We request that the Director provide
comments in response to the final report indicating whether she plans to update the
contract file.

              (12) Properly identify all Government-furnished property provided to
the contractors in the solicitations for task orders as required by the Federal
Acquisition Regulation Subpart 45.2, “Solicitations and Evaluation Procedures.”

Management Comments
The Director, Contracting and Acquisition Management Office, agreed. She
acknowledged that contracting officers did not properly identify Government-furnished
property by specific make, model, serial number, condition, and date in the task orders.
The Director also stated that some items were improperly categorized as
Government-furnished property, but were not provided to the contractor. The Director
stated that the Government instead granted the contractor periodic access to property
managed and maintained by the Government. The Director stated that for task order
W9113M-7-D-0005-0005 it was the Government’s intent to require the contractor to
check out items such as weapons, protective gear, and radios as needed. The Director
stated that the task order was subsequently modified and the contractor was required to
provide these items when it was determined that the Government would not be able to
provide the items.

The Director stated that the contracting office established a formal process to review task
orders, which includes using checklists that will assist in identifying
Government-furnished property. The Director also stated that additional oversight of
property will be included in the COR and technical representatives’ surveillance duties.
The Director stated that she conducted training with CNTPO to properly identify
Government-furnished property and established a formal property management process.

Further, the Director stated that CNTPO initiated a personnel action to hire an individual
to perform full-time surveillance of task orders serving the U.S. Central Command area
of responsibility. She stated that one project leader had been identified and one to two
additional Government personnel were scheduled for deployment. She stated that
adequate support would be achieved by the end of calendar year 2009.




                                            20
Our Response
The Director, Contracting and Acquisition Management Office comments indicate that
corrective actions were taken. However, we request that she provide in response to the
final report a copy of the task order checklists for property. We also request that she
provide the updated COR and technical representative delegation letter and an outline of
the Government-furnished property training. Lastly, we request that the Director provide
a copy of the formal property management process she developed.

                (13) Use an approved system to track and maintain the condition and
location of all Government-furnished equipment, materials, or property as required
by DOD Instruction 5000.64, “Accountability and Management of DOD-Owned
Equipment and Other Accountable Property.”

Management Comments
The Director, Contracting and Acquisition Management Office, agreed. She stated that to
supplement oversight, SMDC and CNTPO implemented a commercial asset management
software system to track and store the location and condition of Government-furnished
property. The Director stated that, as part of the implementation, a complete inventory of
CNTPO property is underway, with completion planned for fourth quarter FY 2009. The
Director stated that corrective actions resulting from the inventory have been completed
for approximately 60 percent of task orders awarded through May 1, 2009. She stated that
she anticipates that corrective action for all task orders will be complete by December 1,
2009. The Director noted that the system will also track Government-furnished property
identified in new requirements and task orders beginning fourth quarter 2009.

Our Response
The Director, Contracting and Acquisition Management Office comments indicate that
corrective actions were taken. However, the Director did not specify whether the
Government-furnished property system will begin tracking task orders in fourth quarter
of fiscal year or fourth quarter calendar year 2009. Therefore, we request that the Director
provide a specific date for the operation of the Government-furnished property tracking
system in her comments to the final report.

               (14) Formalize an agreement with the Director, Defense Contract
Management Agency, to conduct administrative oversight of the task orders issued
under the DOD Counter Narcoterrorism Technology Program Office
indefinite-delivery, indefinite-quantity contracts and request that the Director:

                 (a) Appoint an administrative contracting officer to perform
administrative oversight of the task orders.

                (b) Appoint a certified property administrator to conduct at least
semiannual inventories of all Government-furnished property for task orders.




                                            21
Management Comments
The Director, Contracting and Acquisition Management Office, agreed. She stated that
SMDC has initiated discussions with the administrative contracting officers at the
Defense Contract Management Agency who would be responsible for overseeing
CNTPO task orders. In addition, the Director stated that the contracting office added an
additional property administrator to its staffing requirements for FY 2010.

Our Response
We request that the Contracting and Acquisition Management Office provide in response
to the final report a copy of the formal agreement made with the Director, Defense
Contract Management Agency, to conduct administrative oversight of CNTPO task
orders.

             (15) Obtain the necessary Theater Business Clearance for any task
order performed in or involving goods delivered to Iraq or Afghanistan as required
by the Under Secretary of Defense for Acquisition, Technology, and Logistics
Memorandum, “Retroactive Iraq/Afghanistan Contract Compliance and
Assignment of Contract Administration,” December 20, 2007.

Management Comments
The Director, Contracting and Acquisition Management Office, agreed. She stated that
when additional staff are added to support contracting efforts for the CNTPO task orders,
the backlog in executing the Theater Business Clearances should be overcome.

Our Response
The Director, Contracting and Acquisition Management Office, did not fully respond to
the recommendation. We request that the Director provide comments in response to the
final report indicating a completion date for executing Theater Business Clearance
memorandums. Her response should indicate by CNTPO task order the Theater Business
Clearance completion date for each.

              (16) Modify the basic contracts to include Theater Business Clearance
requirements and all necessary contract clauses as required by the Under Secretary
of Defense for Acquisition, Technology, and Logistics Memorandum, “Retroactive
Iraq/Afghanistan Contract Compliance and Assignment of Contract
Administration,” December 20, 2007.

Management Comments
The Director, Contracting and Acquisition Management Office, disagreed with draft
Recommendation A.3.p (now final report Recommendation A.2.b.16) to modify task
orders. She stated that including the clauses at the task order level would be redundant.
The Director suggested that we revise the recommendation to require that the contracting
officers review the basic contracts to ensure that appropriate clauses and contract terms
are included as required by the Under Secretary of Defense for Acquisition, Technology,
and Logistics Memorandum, “Retroactive Iraq/Afghanistan Contract Compliance and


                                           22
Assignment of Contract Administration,” December 20, 2007. The Director stated that
the contracting office is reviewing the terms of the basic contracts to ensure that the
overseas support requirements comply with the memorandum. The Director stated that
the review and necessary updates to the basic contracts will be completed before fourth
quarter FY 2009.

Our Response
As a result of management comments, we revised the recommendation. We request that
the Director provide comments in response to the final report identifying the specific
changes made to the basic contracts for overseas support requirements.




                                           23
Finding B. Contract Surveillance
SMDC contracting officials and CORs did not conduct adequate contract surveillance for
35 task orders valued at approximately $98.8 million. Specifically, contracting officials
did not develop quality assurance surveillance plans (QASPs) to go along with the
performance work statements. Further, CORs did not always accept goods and services or
review contractor bills submitted by the CNTPO IDIQ contractors. Lastly, the contracting
officer improperly delegated CORs to monitor the task orders. The SMDC contracting
officers and CORs did not adequately perform their duties because they were unaware of,
misunderstood, or did not follow Federal and DOD procurement regulations. The
contracting officials also did not ensure that the CORs were properly trained to conduct
contract surveillance. As a result, SMDC contracting officials and CORs cannot provide
assurance that they or the requiring activity actually received the goods or services
contracted for.

Quality Assurance Surveillance Plans
The SMDC contracting officers and CORs did not perform adequate contract surveillance
for any of the 35 task orders reviewed valued at approximately $98.8 million. DFARS
Part 246, “General,” May 12, 2006, requires that DOD Components create and manage a
cost-effective and systematic Government quality assurance program, including quality
audits of products and services to verify that contract performance is in accordance with
the requirements specified in the contract.

Additionally, SMDC contracting officials did not develop overall or individual QASPs
for the 35 task orders reviewed. According to FAR Subpart 46.4, “Government Contract
Quality Assurance,” March 2005, a QASP should be developed in conjunction with the
performance work statement. FAR Subpart 46.4 also states that the QASP should include
a description of all work requiring surveillance, location of inspections, and the method
for accepting the goods or services. In lieu of a QASP, SMDC contracting officials
included a performance requirements summary matrix in each task order. Although the
performance requirements summary indicated how SMDC planned to assess contractors
performance, it did not include the level of detail required by FAR Subpart 46.4. For
instance, the performance requirements summary did not include all of the work
requiring surveillance, location of inspections, or the method the Government planned to
use to accept the goods or services provided.

Not having a defined QASP before the start of contract performance can result in gaps in
contract surveillance and a lack of assurance that services and goods are in accordance
with the terms of the contract. Additionally, without a proper QASP, contracting officials
have no standards for determining whether supplies or services provided by contractors
complied with contractual requirements, and may not be able to stop the waste of
Government time and money. SMDC contracting officials should develop a QASP to go
along with the performance work statement for each task order before contract
performance begins.




                                            24
SMDC contracting officials acknowledged that they did not develop an overall QASP to
assist them in developing a QASP for individual task orders. On February 3, 2009,
SMDC contracting officials provided us with an updated QASP that indicated whether
the services performed or the goods delivered met contractual requirements. However,
the QASP was not approved or dated. Before issuing future task orders under the CNTPO
IDIQ contracts, the Director, SMDC Contracting and Acquisition Management Office,
should require that contracting officers finalize and approve the overall QASP. It is
essential that the contracting officers use the overall QASP when developing individual
QASPs for task orders issued under the CNTPO IDIQ contracts.

Quality Controls
CORs did not always use receiving reports to accept goods and services or review
charges billed by the contractors. FAR Subpart 46.6 requires that policies and procedures
ensure that supplies and services acquired by the Government under a contract conform
to the requirements of the contract. Government agencies must ensure that contracts
include inspection and quality requirements necessary to protect the Government’s best
interest.

Accepting Goods and Services
For 29 of the 35 task orders reviewed, SMDC contracting officers and CORs did not have
evidence that goods and services were actually received. FAR Subpart 46.6, “Material
Inspection and Receiving Reports,” March 2005, requires that agencies prescribe
procedures and instructions for the use, preparation, and distribution of material
inspection and receiving reports to evidence Government inspection. Additionally, DOD
Regulation 7000.14-R, “Financial Management Regulation” (DOD FMR), volume 10,
“Contract Payment Policy and Procedures,” chapter 1, “Financial Control of Vendor and
Contract Payments,” March 2002, states that DOD has no obligation to pay for goods or
services until there is delivery and acceptance.6 When CNTPO officials accepted the
goods or services, they used DD Form 250, “Material Inspection and Receiving Report,”
as their means of acceptance.

As of November 14, 2008, CNTPO officials had prepared only 16 receiving reports,
which corresponded to 6 of the 35 task orders. We discuss the proper use of receiving
reports in finding C of this report and make recommendations accordingly.

Reviewing Contractor Bills
SMDC contracting officers and their CORs did not review contractor bills to ensure that
the billings always corresponded to the actual goods and services received. See finding C
for a detailed discussion on the review of contractor bills.



6
 DOD FMR volume 10, chapter 7, “Prompt Payment Act,” July 2002, defines actual acceptance as a
formal certification that the goods or services have been received and that they conform to the terms of the
contract. This usually occurs after the completion of any necessary testing and inspection allowed by the
contract and is documented by the receiving activity.


                                                     25
Designation and Training of CORs
We identified 10 CORs for the CNTPO IDIQ contracts, 2 were designated and 8 were
acting as CORs. According to DFARS Subpart 201.6, “Career Development, Contracting
Authority and Responsibilities,” April 23, 2008, CORs assist in the technical monitoring
or administration of a contract. For the 35 task orders reviewed, we determined that the
task order monitors performed the same duties as CORs. In light of their duties, we
determined that the task order monitors should be held to the same standards as CORs.
For purposes of this report, we will refer to task order monitors as CORs.

COR Designations
According to DFARS Subpart 201.6, a COR must be a Government employee, qualified
by training and experience commensurate with the responsibilities delegated in
accordance with Department or agency guidelines. DFARS 201.602-2,
“Responsibilities,” also states that COR responsibilities must be in writing and that the
responsibilities cannot be redelegated. For that reason, the contracting officer is expected
to appoint a properly trained COR.

The SMDC contracting officers designated a COR and an alternate COR for the CNTPO
IDIQ contracts. However, for 10 of the 35 task orders reviewed, SMDC contracting
officers did not designate a COR in writing. For 24 of the 25 remaining task orders,
1 COR redelegated his contract monitoring functions to 8 other CORs although the COR
appointment letter explicitly prohibits redelegating this authority. According to the COR,
SMDC contracting officials told him to do so. Furthermore, SMDC contracting officials
stated that they did not review or approve the COR redelegations before the task orders
began. SMDC contracting officials should review these COR redelegations to ensure that
they meet Federal and DOD requirements. Contracting officials should also designate all
CORs before the start of contract performance.

COR Training
DFARS Subpart 201.6 states that a COR must have the necessary training and
experience. According to a Director of Defense Procurement and Acquisition Policy
Memorandum, “Designation of Contracting Officer’s Representatives on Contracts for
Services in Support of Department of Defense Requirements,” December 6, 2006, a COR
must be properly trained before being appointed. According to the Office of Management
and Budget Memorandum, “The Federal Acquisition Certification for Contracting Officer
Technical Representatives,” November 26, 2007 (Federal COR certification program), all
CORs appointed to a contract after the effective date of the memorandum must be
certified no later than 6 months from their date of appointment. The Federal COR
certification program established competency-based core training and assignment-
specific training to achieve and maintain the COR certification. Once certified, CORs
must maintain their contracting skills and knowledge through continuous learning. After
review of the training documentation submitted by the CORs for the CNTPO IDIQ
contracts, we determined that the 10 CORs did not meet those training and certification
requirements.




                                             26
According to the DOD Panel on Contracting Integrity’s “2008 Report to Congress,”
DOD officials are in the process of developing the first standard DOD COR certification
program. The SMDC contracting officers should require that CORs complete the COR
certification program established by the Office of Management and Budget until DOD
officials finalize their program. SMDC contracting officers must ensure that properly
trained CORs are designated for contracts before contract performance begins. SMDC
contracting officers should implement the Federal COR certification program to ensure
that CORs stay current in their functional areas. Additionally, SMDC contracting officers
need to designate CORs that meet the Federal COR certification program requirements.

Summary
Because of insufficient Government surveillance, there is no assurance that the
Government received all goods and services purchased, worth approximately
$98.8 million. SMDC contracting officers did not conduct adequate contract surveillance
for the 35 task orders reviewed. SMDC contracting officials also did not implement an
individual QASP or appoint trained CORs for each task order. Further, SMDC
contracting officers and CORs did not appropriately accept goods and services purchased.
The SMDC contracting officers and CORs did not adequately perform their duties
because they were unaware of, misunderstood, or did not follow Federal and DOD
procurement regulations

Management Actions Taken
On November 4, 2008, after we began our audit, SMDC contracting officials created a
new SMDC COR policy and COR designation form for the CNTPO IDIQ contracts.
According to the new COR policy, contracting officers will designate a properly trained
COR before contract performance begins for service-related contracts and ensure that a
QASP is prepared and implemented. The new policy also allows the contracting officer to
delegate a technical representative to assist the COR with contractor surveillance, and
requires the technical representative to comply with the same training requirements as the
COR. However, the new COR policy allows the Commander of SMDC to waive the
requirements of the policy as long as the Commander documents the rationale supporting
the waiver.

Management Comments on the Finding and
Our Response
Deputy Assistant Secretary of Defense for Counternarcotics and
Global Threats Comments
The Principal Director for Counternarcotics and Global Threats, commenting for the
Deputy Assistant Secretary of Defense for Counternarcotics and Global Threats,
disagreed with the conclusion. He stated that his office independently initiated procedures
to account for all the equipment it funded. The Principal Director stated that in
June 2008, the Deputy Assistant Secretary of Defense for Counternarcotics and Global
Threats issued a memorandum directing end-use-monitoring of DOD counternarcotics
equipment issued to foreign nations through the end of FY 2007. The Principal Director


                                            27
stated that the monitoring would include a 100-percent inventory of all night vision
devices and weapons, with confirmation that the equipment is being stored and controlled
properly. The Principal Director stated that the results of the review were included in his
response to the draft report.

Our Response
Although we commend the Deputy Assistant Secretary of Defense for Counternarcotics
and Global Threats for initiating a review of all equipment funded by his office, the
contracting officer is responsible for ensuring property accountability. FAR subpart 45.2
requires that contracting officers identify all Government-furnished property anticipated
in all solicitations. The property listing should include name, description, manufacturer,
model number, national stock number (if applicable), quantity, unit acquisition cost, and
a unique item identifier. Of the 35 task orders reviewed, 8 task orders contained
Government-furnished property. However, the contracting officers either did not
maintain any property records or they did not maintain complete property records for
CNTPO property in the contract files. In her comments, the Director, Contracting and
Acquisition Management Office, stated that efforts are underway to compile a complete
listing of all Government-furnished property for CNTPO task orders. We request that the
Principal Director provide the Director, Contracting and Acquisition Management Office,
a copy of the end-use-monitoring report to assist in her review.

Recommendations, Management Comments, and
Our Response
Revised Recommendation
Based on comments from the Director, Contracting and Acquisition Management Office,
we revised Recommendation B.2 to eliminate confusion in regards to the intent of the
Recommendation.

B. We recommend that the Director, U.S. Army Space and Missile Defense
Command/Army Forces Strategic Command, Contracting and Acquisition
Management Office, require that contracting officers:

       1. Develop and implement a systematic Government quality assurance
program for the task orders issued under the DOD Counter Narcoterrorism
Technology Program Office indefinite-delivery, indefinite-quantity contracts as
required by Defense Federal Acquisition Regulation Supplement Part 246,
“General.”

Management Comments
The Director, Contracting and Acquisition Management Office, agreed. She stated that
the contracting office worked with CNTPO and developed a comprehensive quality
assurance program. The Director stated that the basic quality assurance hierarchy
includes the employment of contracting officers, contract specialists, CORs, contracting
officer technical representatives, and subject matter experts. The Director stated that the


                                             28
contract specialists and technical representatives responsible for day-to-day contract
administration and quality assurance would support the contracting officers and CORs.
The Director said that subject matter experts would support the technical representatives
in the functional areas. She stated that the team would be fully constituted no later than
second quarter 2010.

Our Response
The Director, Contracting and Acquisition Management Office, did not fully respond to
the recommendation. Although the Director recognized that additional personnel
resources were needed to implement a comprehensive assurance program, she did not
explain how she planned to implement quality audits as part of the program or who
would conduct the audits. She also did not explain the processes and procedures she
planned to include in a quality audit. Quality audits are required by DFARS part 246 to
ensure that the quality of products and services meet contractual requirements. We
request that the Director provide comments on the final report describing the
implementation of quality audits in the comprehensive quality assurance program, and
processes and procedures that would be followed when conducting an audit.

       2. Finalize and approve the overall quality assurance surveillance plan for
the DOD Counter Narcoterrorism Technology Program Office indefinite-delivery,
indefinite-quantity contracts.

Management Comments
The Director, Contracting and Acquisition Management Office, agreed. She stated that
the contracting office developed a contract-level QASP and shared it with the audit team.
The Director stated that the contract-level QASP meets the requirements of FAR
subpart 46.6. She also stated that task orders awarded after October 1, 2009, would
include task order surveillance plans that contain a performance requirements summary
and comprehensive information that addresses when surveillance will take place and by
whom. The Director also stated that contracting officer technical representatives will
develop monthly reports to show progress on tasks. The Director stated that the systemic
changes were planned for no later than first quarter 2010.

Our Response
The Director, Contracting and Acquisition Management Office, did not fully respond to
the recommendation. While the contracting office did provide a copy of a contract-level
QASP, the plan was unsigned. We request that the Director provide in response to the
final report an approved, signed, and dated copy of the contract-level QASP.

       3. Implement an individual quality assurance surveillance plan for each task
order as required by Federal Acquisition Regulation Subpart 46.4, “Government
Contract Quality Assurance.”




                                            29
Management Comments
The Director, Contracting and Acquisition Management Office, agreed. She also
suggested that we delete draft report Recommendation B.3, which she believed was
included as part of Recommendation B.2.

Our Response
The Director, Contracting and Acquisition Management Office, did not fully respond to
the recommendation. The Director stated in her comments to Recommendation B.2 that
task orders awarded after October 1, 2009, would include task order surveillance plans
that include a performance requirements summary and comprehensive information on
when surveillance will take place and by whom. However, the Director did not state
whether task order surveillance plans would comply with all of the requirements in
FAR Subpart 46.4. Specifically, she did not state whether the plan identified the work
requiring surveillance, the location of the inspections, or the method the Government
planned to use to accept the goods or services provided. If the Director includes the
additional details in task order surveillance plans, she will have met the intent of this
recommendation.

As a result of comments from the Director, Contracting and Acquisition Management
Office, we revised this recommendation. As a result, we ask that the Director provide
comments in response to the final report on the revised recommendation.

       4. Designate in writing a properly trained contracting officer’s representative
for each task order in accordance with Defense Federal Acquisition Regulation
Supplement Subpart 201.6, “Career Development, Contracting Authority, and
Responsibilities.”

Management Comments
The Director, Contracting and Acquisition Management Office, agreed. She
acknowledged that the contracting officers improperly instructed the CORs to designate
task order monitors, constituting a subdelegation of their authority. The Director stated
that the contracting office has delegated COR authority to CNTPO personnel who have
overall responsibility for all task orders awarded. The Director stated that the contracting
office is currently delegating contracting officer technical representative authority, at the
task order level, to individuals who will conduct surveillance and inspection of the task
orders.

Our Response
The Director, Contracting and Acquisition Management Office comments indicate that
corrective actions were taken, and therefore, no further comments are required.

       5. Require that contracting officer’s representatives comply with the Office
of Management and Budget’s contracting officer’s representative certification
program until DOD officials establish a standard DOD contracting officer’s
representative certification.


                                             30
Management Comments
The Director, Contracting and Acquisition Management Office, agreed. She stated that
the contracting office now requires that CNTPO submit a written nomination and
evidence of training completed or scheduled for a COR and technical representative when
submitting contract requirements. The Director stated that CNTPO is also required to
include standards and objectives in the performance plans for CORs and technical
representatives for the effective, efficient, and timely execution of their duties.

Our Response
The Director, Contracting and Acquisition Management Office comments indicate that
corrective actions were taken, and therefore, no further comments are required.

      6. Remove the waiver from the Army Space and Missile Defense Command
Contracting Officer Representative policy issued on November 4, 2008, that allows
the Commander, Army Space and Missile Defense Command, to appoint to DOD
contracts contracting officer representatives who are not trained in accordance with
Federal or DOD policy.

Management Comments
The Director, Contracting and Acquisition Management Office, disagreed. She stated that
the SMDC COR policy is based on requirements established by the Office of the
Secretary of Defense and the Office of the Assistant Secretary of the Army and
procedures established by SMDC. The Director stated that the waiver was included in the
SMDC COR policy for unique circumstances that may require the Commander to grant a
waiver. The Director stated that the policy is clear that the waiver request must be
documented and include specific information.

Our Response
We acknowledge the comments of the Director, Contracting and Acquisition
Management Office, but note that DOD policy does not allow DOD Components to
waive training requirements when appointing CORs to oversee DOD contracts. Absent
such authority, the SMDC COR policy has no valid basis for a waiver. Accordingly, the
Director should remove the waiver from the SMDC COR policy. We request that she
provide additional comments in response to the final report.




                                          31
Finding C. Contractor Billing
SMDC and CNTPO officials did not ensure that the contractors were fully entitled to the
$47.9 million paid on the CNTPO IDIQ task orders. DOD officials did not determine the
contractors’ entitlement to payment because SMDC contracting officials did not require
that CORs review contractor bills. Additionally, the SMDC contracting officer failed to
formalize an agreement with Defense Contract Management Agency officials to certify
that goods and services billed by the contractors were received. As a result, DOD
officials paid the CNTPO IDIQ contractors for goods and services that may not have
been allowable or reasonable. Additionally, the contracting officers may have
erroneously included about $346.2 million in other direct costs, roughly 34 percent of the
total value of task orders as awarded through March 12, 2009.

Billing and Payment Entitlement
FAR 31.2, “Contracts with Commercial Organizations,” August 17, 2007, states that
expenses billed to the Government are limited to costs that are allowable, allocable, and
reasonable. DOD FMR volume 10, chapter 1 states that payment cannot be made without
determining entitlement to the payment. Further, receipt of a “proper”7 invoice, proof of
receipt, and acceptance,8 as well as the contract terms and conditions, determine
entitlement. According to the DOD FMR, volume 10, chapter 7, “Prompt Payment Act,”
July 2002, a disbursing office must be provided supporting documents as evidence that
the payment is legal. The supporting documents normally consist of a contract, invoices
from contractors, and a receiving report completed by the offices receiving the property
or service. According to the DOD FMR volume 10, chapter 8, “Commercial Payment
Vouchers and Supporting Documents,” May 2008, a contractor is “entitled” to payment
when the contracting officer issues a contract, prepares a receiving report, and approves
the invoice a contractor submits for payment. The following diagram depicts the billing
and payment process according to the DOD FMR.




7
  According to FAR 52.232-25(a)(3), “Prompt Payment,” October 2008, an invoice is considered “proper”
when it contains, the name and address of the contractor; invoice date; contract number; and description,
quantity, and unit price and measure of supplies delivered or services performed.
8
  Acceptance means an authorized Government official acknowledges that goods and services received
conform to contract requirements.


                                                   32
         Proper DOD Billing and Payment Process

                 Documents to Support Entitlement
 Contracting              Receiving office            Contractor submits
Officer awards      +    prepares receiving       +    “proper” invoice
   contract                    report                  (Contractor bill)
                            (acceptance)




                     Contractor- or system-
                      generated voucher




                               Certifying
                                official
                                reviews



                 If rejected                    If approved




                                Disbursing
                               office reviews
                                 supported
                                  voucher


                                                  If approved
                 If rejected
                                                        Certifies an
                                                         approved
                                                          voucher
             Voucher returned
             to contractor for
                correction                              Disbursing office
                                                        disburses money


                                                         Contractor paid




                                    33
Contractor Bills
SMDC and CNTPO officials did not ensure that the contractors were fully entitled to the
$47.9 million paid on 19 of the 35 CNTPO IDIQ task orders. Specifically, SMDC
contracting officers did not ensure that contractors submit proper public vouchers
(contractor bills). The overall IDIQ contracts require only that the contractors include the
order number, the words “CNTPO Contract,” and the accounting classification number
on public vouchers they submit. According to DOD FMR, volume 10, chapter 8, a
voucher is the contractor’s bill or written request for payment under the contract for the
services or supplies provided. A voucher is considered proper when it contains, among
other things, a description, quantity, and price of the supply or service being performed.
For purposes of this report, we will refer to public vouchers as contractor bills.

The 4 contracting officers and 10 CORs assigned to monitor the CNTPO IDIQ task
orders did not review contractor bills to ensure that they contained a description, quantity,
and price of performance. Additionally, neither the contracting officers nor the CORs
required the contractors to provide supporting documents that described the amounts they
billed for labor categories and rates, travel, materials, and other direct costs. For instance,
one bill sent to the Government indicated that the contractor provided “material” for
approximately $1.3 million but did not describe or list the material provided. Another
contractor bill sent to the Government indicated that the contractor had approximately
$112,500 of travel expenses without describing or itemizing the travel being claimed.

When asked, the majority of the CORs stated that they did not always review the
contractor bills or keep copies of the bills for the task orders they monitored. The CORs
stated that they limit their review of contractor-incurred expenses to monthly expenditure
and progress reports submitted by the contractors. However, the contractors’ reports did
not contain enough information to determine whether the expenses had been incurred.
CORs also stated that their reviews of the reports consisted of “eyeballing” to verify that
the amounts were “in the ballpark,” under the authorized limits identified by the contract.
Lastly, CORs further stated that they did not review any travel expenses. The CORs’
cursory reviews of the bills submitted by the contractors may have caused the
Government to waste millions of dollars by paying for goods and services the
Government has not received.

Consequently, SMDC contracting officers and their CORs allowed contractor payments
of approximately $47.9 million without always reviewing the contractor bills to
determine whether costs were allowed by the task orders. The contracting officers must
require that CORs review contractor bills before approving them for payment to ensure
the amounts are allowed by the CNTPO IDIQ task orders. Additionally, contracting
officers should instruct the CORs to review accompanying documentation supporting
costs billed to DOD, or request such documentation if necessary. The contracting officer
should modify the CNTPO IDIQ contracts to require that the contractors submit bills
(public vouchers) to the Defense Contract Audit Agency for processing. The Defense
Contract Audit Agency should review all contractor bills in accordance with their
procedures. SMDC contracting officers should also require that CORs review the
contractor bills instead of the contractor-provided monthly expense reports to determine


                                              34
whether the contractors are submitting allowable, allocable, and reasonable costs to the
Government.

Acceptance of Goods and Services
SMDC contracting officials did not verify, document, or have an agreement with the
Defense Contract Management Agency officials to certify that goods and services billed
by the contractors were received. DOD FMR volume 10, chapter 7, requires that the
office receiving goods or services complete a receiving report as formal acceptance that
the Government was satisfied with the contractor’s performance. The acceptance period
should be specified in the contract.

For only 6 of the 19 task orders that had payments, CORs completed a DD Form 250, a
receiving report, as written evidence that they were satisfied with the supplies delivered
or the services provided. For the remaining 13 task orders, the CORs did not verify or
document that the receiving office was satisfied with the goods and services provided
from the contractor. Also, neither the overall CNTPO IDIQ contracts nor the task orders
established the acceptance period. The contracting officials initially told us that the
Defense Contract Management Agency officials reviewed and maintained the
contractors’ bills for the 35 task orders we reviewed. However, Defense Contract
Management Agency officials did not have a formal agreement with the SMDC
contracting officers to perform oversight of the CNTPO IDIQ contracts. Additionally, a
Defense Contract Management Agency official stated that since the contracting officers
authorized the contractors to bill the Government directly, these contracts functioned as
“blank checks” for the contractors.

The SMDC contracting officers should modify CNTPO contracts to establish a period of
acceptance for goods and services. The contracting officers should also require that
CORs complete a DD Form 250 when they accept services or as contractors complete
work on task orders. Without proper acceptance of a good or service and a proper
invoice, DOD should not be authorizing payments to contractors that may not be allowed.

Other Direct Costs
Although a review of other direct costs was outside the scope of our audit, we found that
SMDC contracting officers included significant amounts of other direct costs when
awarding task orders to CNTPO IDIQ contractors. Defense Contract Audit Agency
Manual 7640.1, “Contract Audit Manual,” chapter 9, “Audit of Cost Estimates and Price
Proposals,” December 31, 2008, defines “other direct costs” as expenses other than direct
material or labor costs.

As of March 12, 2009, SMDC contracting officers issued 80 task orders worth
approximately $1.2 billion. See tables in Appendix A for more on task orders issued. Of
the 80 task orders, 60 (potentially worth approximately $1 billion) contained potential
other direct costs of approximately $346.2 million, which is about 34 percent of the total




                                            35
potential task order value.9 See Table 1 for the total number of task orders with other
direct costs that were awarded under cost-plus-fixed-fee contract line items.

                 Table 1. Contracts and Their Other Direct Costs
     Contract Number       Contractor        Task    Other Direct                              Potential
                                           Orders         Costs                                Amount
                                                      (in millions)                          (in millions)
    W9113M-07-D-0005        Blackwater        15         $131.9                                 $444.2
    W9113M-07-D-0006              Lockheed Martin            20               41.0               136.8
    W9113M-07-D-0007                     TASC                16              118.5               320.8
    W9113M-07-D-0008                   Raytheon               9               54.7               104.4
    W9113M-07-D-0009                    ARINC                 0               N/A                 N/A
        Total                                                60            $346.2*           $1,006.2
    N/A indicates not applicable.
    *
     Numbers do not equal the total because of rounding.

The lack of contract management, surveillance, and billing oversight, discussed above,
leads us to believe that there is a high potential for other direct costs to be erroneously
charged to the Government. Therefore, we recommend that the Director, Defense
Contract Audit Agency, conduct a review of all contractor bills submitted under the
CNTPO IDIQ contracts.

Conclusion
DOD may have paid CNTPO IDIQ contractors for goods and services that were not
allowable, allocable, or reasonable. Additionally, the contracting officers may have
erroneously included about $346.2 million of unspecified total other direct costs, which is
approximately 34 percent of the total value of task orders. To ensure adequate oversight
of contractor bills and payments, the Director, Defense Contract Audit Agency, should
review all contractors bills (public vouchers) and conduct a cost audit to include the other
direct costs and any time-and-materials or labor-hour contract line item charges
submitted under the CNTPO IDIQ contracts. See Finding A for a discussion on
time-and-materials and labor-hour contract line items found in the CNTPO IDIQ
contracts.




9
 We considered the potential task order value to be the amount of the task order plus any options that the
contracting officer could exercise.


                                                     36
Management Comments on the Finding and
Our Response
Director, Contracting and Acquisition Management Office,
Comments
The Director, Contracting and Acquisition Management Office, disagreed with
statements in the report about other direct costs. She stated that the high value of other
direct costs typically indicates that the contractor’s accounting practice is to include
supplier services as other direct costs. The Director stated that the Defense Contract
Audit Agency conducts audits of all costs incurred upon task order completion and
recommends to the contracting officer costs that the agency finds are not allocable or
allowed and are improperly or overstated.

Our Response
As stated in the draft report, we identified material weaknesses in the management,
billing, and surveillance of the CNTPO task orders reviewed. We were especially
concerned that the SMDC contracting officers and CNTPO CORs did not conduct proper
surveillance or review or maintain contractor bills. For the few bills we did obtain, the
level of detail in the bills and the lack of supporting documents was not sufficient to
determine whether the contractor was entitled to payments received. While we agree that
the Defense Contract Audit Agency conducts incurred-cost audits, the audits do not
negate the contracting officer’s important surveillance responsibilities for CNTPO task
orders. Based on this, we believe the statements made in the draft report on our concerns
about the potential questionable charges for other direct costs were justified.

Recommendations, Management Comments, and
Our Response
C.1. We recommend that the Director, Defense Contract Audit Agency:

        a. Include public vouchers submitted under the DOD Counter
Narcoterrorism Technology Program Office indefinite-delivery, indefinite-quantity
contracts as part of its review of public vouchers in accordance with the procedures
identified in the Defense Contract Audit Agency Manual 7640.1, “Contract Audit
Manual.”

Defense Contract Audit Agency Comments
The Assistant Director for Policy and Plans, commenting for the Director, Defense
Contract Audit Agency, agreed. He stated that the Defense Contract Audit Agency would
include public vouchers submitted under the narcoterrorism program contracts as part of
its next review of public vouchers. The Assistant Director stated that the public voucher
reviews would be performed in accordance with the Defense Contract Audit Manual.




                                             37
Our Response
The Assistant Director for Policy and Plans, Defense Contract Audit Agency comments
indicate that corrective actions were taken, and therefore, no further comments are
required.

        b. Conduct a cost audit of the DOD Counter Narcoterrorism Technology
Program Office indefinite-delivery, indefinite-quality contracts to include the other
direct costs and any time-and-materials or labor-hour contract line items.

Defense Contract Audit Agency Comments
The Assistant Director for Policy and Plans, commenting for the Director, Defense
Contract Audit Agency, agreed. He stated that the Defense Contract Audit Agency would
perform incurred-cost audits of the narcoterrorism contracts. The Assistant Director
stated that incurred-cost audits would be in accordance with the requirements in the
Defense Contract Audit Agency Manual.

Our Response
The Assistant Director for Policy and Plans, Defense Contract Audit Agency comments
indicate that corrective actions were taken, and therefore, no further comments are
required.

C.2. We recommend that the Director, U.S. Army Space and Missile Defense
Command/Army Forces Strategic Command, Contracting and Acquisition
Management Office, require that the contracting officers:

       a. Modify the DOD Counter Narcoterrorism Technology Program Office
indefinite-delivery, indefinite-quantity contracts to:

              (1) Require that the contractors submit payment requests for labor,
material, and other direct costs on public vouchers to the Defense Contract Audit
Agency for processing.

              (2) Include the acceptance period for goods and services that
contractors deliver.

             (3) Require that the contractors provide detailed cost documentation
and information in contractor bills as required by DOD Regulation 7000.14-R,
“Financial Management Regulation,” volume 10, “Contract Payment Policy and
Procedures,” chapter 8, “Commercial Payment Vouchers and Supporting
Documents.”

Director, Contracting and Acquisition Management Office,
Comments
The Director, Contracting and Acquisition Management Office, agreed. She stated that
her office, the administrative contracting officers, and Defense Contract Audit Agency


                                           38
officials confirmed that CNTPO contractors now submit requests for payment in Wide
Area Work Flow. The Director stated that all three parties permit the contractors to
submit 2-in-1 invoices whereby the acceptance of requests for payment are scanned into
Wide Area Work Flow as evidence of payment. The Director stated that she planned to
modify the basic contracts to include additional billing information and direction for
submitting supporting details for payment.

Our Response
Further action by the Director, Contracting and Acquisition Management Office, is
necessary on this recommendation. The Director must ensure that either the COR or the
contractor attaches receiving report(s) to the corresponding contractor bill(s) in Wide
Area Work Flow. This process should facilitate sound Government contract surveillance
over the contractor bills and allow the Defense Contract Audit Agency to review the bills
CNTPO contractors submit to DOD for payment. We request that the Director provide
comments in response to the final report stating whether she will require that the COR or
contractor attach receiving reports to corresponding contractor bills in Wide Area Work
Flow. We also request that the Director include in her response a copy of the changes she
made to the basic contracts for billing.

       b. Require that contracting officer’s representatives review and approve
contractor bills and supporting documentation before authorizing payment, to
ensure that the bills are commensurate with contract performance.

Director, Contracting and Acquisition Management Office,
Comments
The Director, Contracting and Acquisition Management Office, agreed. She stated that
the requirement for CORs to approve contractor bills before authorizing payment has
been a requirement since the program began. The Director stated that reinforcement of
the requirement has been included in the COR and technical representative designation
letters and in remedial training.

Our Response
The Director, Contracting and Acquisition Management Office comments indicate that
corrective actions were taken, and therefore, no further comments are required.

       c. Require that contracting officer’s representatives or officials with the
receiving activity properly accept all goods and services provided by the contractors
through the use of receiving reports or their equivalents in accordance with Federal
Acquisition Regulation Subpart 46.4, “Government Contract Quality Assurance,”
and DOD Regulation 7000.14-R, “Financial Management Regulation” volume 10,
“Contract Payment Policy and Procedures,” chapter 1, “Financial Control of
Vendor and Contract Payments.”




                                           39
Director, Contracting and Acquisition Management Office,
Comments
The Director, Contracting and Acquisition Management Office, agreed. She reiterated her
response to Recommendation C.2.b that CORs’ use of receiving reports to accept goods
and services for CNTPO task orders was included in the COR and technical
representative designation letters and in remedial training. The Director stated that the
CORs and technical representatives will also be required to certify in Wide Area Work
Flow that they accepted the goods and services.

Our Response
The Director, Contracting and Acquisition Management Office, did not fully respond to
the recommendation. In January 2009, SMDC contracting officials provided us with an
updated COR designation letter; however, the letter did not explicitly require the use of a
DD Form 250 or equivalent to accept goods and services for CNTPO task orders. We
request that the Director update the COR designation letter to explicitly require CORs to
use a DD Form 250 or equivalent and provide us a copy when completed.

Defense Contract Audit Agency Comments
Although not required to comment on the recommendation, the Assistant Director for
Policy and Plans, commenting for the Director, Defense Contract Audit Agency, stated
that his agency was aware of at least one instance when the labor-hour contract line items
were billed and paid using a receiving report that was not processed by the Defense
Contract Audit Agency. The Assistant Director stated in his comments to
Recommendation C.1 that not all labor costs are currently charged on the bills submitted
for payment and that the contractor is incorrectly labeling some contract line items as
firm-fixed-price. The Assistant Director suggested that we add a recommendation to this
report requesting that the contracting officers require the CNTPO contractors to submit
bills for labor, material, and other direct costs on public vouchers to the Defense Contract
Audit Agency for review and provisional approval.

Our Response
We acknowledge the concerns of the Assistant Director for Policy and Plans, Defense
Contract Audit Agency. We believe that if the Director, Contracting and Acquisition
Management Office, complies with Recommendation C.2.a, by requiring contractors to
submit payment requests that include detailed costs and supporting documents, the
Defense Contract Audit Agency will have cognizance to review CNTPO task orders, and
its review of contractor bills for the CNTPO contracts will not be hindered.




                                            40
Finding D. Potential Antideficiency Act
Violations
SMDC contracting officials and CNTPO officials did not comply with appropriations law
and regulations. We identified four potential Purpose Statute violations, which could
result in Antideficiency Act violations valued at approximately $20.5 million. SMDC
contracting officials and CNTPO officials may have violated the Purpose Statute by
exceeding the statutory limitation for using Operation and Maintenance appropriations on
two task orders for unspecified minor military construction projects. SMDC contracting
officials and CNTPO officials also potentially violated the Purpose Statute on two task
orders by using the Research, Development, Test, and Evaluation (RDT&E)
appropriation to procure commercial items that did not require either a significant
modification or independent testing before operational use. These potential violations
occurred because SMDC contracting officials and CNTPO officials misinterpreted, or did
not follow appropriations law and regulations. As a result of improperly using
appropriations and not adhering to statutory limitations established by Congress, SMDC
and CNTPO officials may have circumvented legislative control of the public purse.

Appropriations Law and Regulations
The Antideficiency Act is codified in section 1301, title 31, United States Code
(31 U.S.C. 1301), and in other sections.10 The purpose of the Antideficiency Act is to
enforce the constitutional budgetary powers of Congress with respect to the purpose,
time, and amount of expenditures made by the Federal Government. Specifically,
31 U.S.C. 1301—the Purpose Statute—states that an appropriation must be applied to
objects that the appropriations were made for, except as otherwise provided by law. In
addition, 31 U.S.C. 1341 states that an officer or employee of the U.S. Government may
not authorize an amount that exceeds the expenditure or appropriation threshold. SMDC
contracting officials and CNTPO officials did not comply with appropriations law and
regulations. We identified four potential Purpose Statute violations, which could result in
Antideficiency Act violations valued at approximately $20.5 million.

Operation and Maintenance Funds for Construction Projects
United States Code (10 U.S.C. 2805) states that a military construction project11 equal to
or less than $1.5 million is called an “unspecified minor military construction project.”
However, if the military construction project is solely intended to correct a deficiency
that threatens life, health, or safety, the unspecified minor military construction project
may be approved in an amount equal to or less than $3 million. However, 10 U.S.C. 2805

10
   DOD FMR, volume 14, “Administrative controls of Funds and Antideficiency Act Violations,”
chapter 2, “Violations of the Antideficiency Act,” August 2006, states that the following sections of the
United States Code constitute the Antideficiency Act: 31 U.S.C. 1301, 31 U.S.C. 1341, 31 U.S.C. 1342,
and 31 U.S.C. 1517.
11
   A military construction project, as defined by 10 U.S.C. 2801, includes all military construction
necessary to produce a complete and usable facility or a complete and usable improvement to an existing
facility.


                                                    41
states that the Operation and Maintenance appropriation may be used only for unspecified
minor military construction projects that do not cost more than $750,000—or
$1.5 million, if they are solely intended to correct a deficiency that threatens life, health,
or safety. According to DOD FMR volume 14, chapter 2, a potential Antideficiency Act
violation occurs when obligations are authorized or incurred or expenditures are made in
excess of the statutory limitations imposed on the use of Operation and Maintenance
appropriation for unspecified minor military construction. Therefore, any military
construction project costing more than $1.5 million should be appropriately budgeted for
and funded with the Military Construction appropriation.

DOD Directive-type Memoranda
The Assistant Secretary of Defense for Special Operations /Low-Intensity Conflict
(ASD[SO/LIC]) Memorandum, “Unspecified Minor Military Construction Projects
Pursuant to Section 1004,” November 21, 2005, states that the Secretary of Defense may
establish and operate base(s) of operations or training facilities to facilitate counterdrug
activities. The ASD(SO/LIC) memorandum also states that:

                  a cost ceiling of $1.5 million applies to each unspecified minor military
                  construction project undertaken with Operation and Maintenance funds
                  appropriated for drug interdiction and counterdrug activities . . . . A
                  single project may not be split into increments in order to stay within
                  the $1.5 million cost cap. Generally, if two planned projects are
                  “interdependent,”12 they must be carried out as a single project.
                  Projects that are merely “interrelated”13 may be carried out as separate
                  projects, subject to the requirement that each project results in a
                  complete and usable facility.

Dividing a single military construction project into increments to keep the cost below the
Operation and Maintenance appropriation threshold is contrary to Congress’s intent in
imposing the statutory limitation in 10 U.S.C. 2805. Additionally, DOD
Instruction 5025.01, “DOD Directives Program,” October 28, 2007, requires that the
heads of Defense Components incorporate all DOD Directive-type memoranda into an
existing or new DOD issuance, reissue them, or cancel them within 180 days of
publication. For DOD Directive-type memoranda issued before the date of the
ASD(SO/LIC) memorandum, the Component is required to take action within 180 days
of the date of the memorandum. However, the ASD(SO/LIC) did not incorporate his
memorandum—a DOD Directive-type memorandum—into an existing or new DOD
issuance, reissue it, or cancel it within 180 days. Therefore, the ASD(SO/LIC) should
cancel the unspecified minor military construction memorandum and issue a new DOD
policy as required by DOD Instruction 5025.01, as well as comply with 10 U.S.C. 2805.

To avoid further potential Antideficiency Act violations, SMDC contracting officials
should postpone issuance of new task orders and stop performance on military

12
   Interdependent facilities are mutually dependent in performing functions for which they are constructed;
the facilities must be funded as a single project subject to the $1.5 million cost limitation.
13
   Interrelated facilities support a common purpose but are not mutually dependent; therefore, the facilities
must be funded as separate projects each subject to the $1.5 million cost limitation.


                                                     42
construction task orders costing more than $1.5 million with the Operation and
Maintenance appropriation. Meanwhile, the ASD(SO/LIC) should budget for and request
from Congress Military Construction appropriation to complete current and future
military construction projects.

We identified two task orders for construction in Afghanistan and Pakistan:
W9113M-07-D-0005-0002 and W9113M-07-D-0007-0006. CNTPO officials required
construction either to improve existing facilities or to create new facilities that would
assist in deterring narcoterrorists. However, the military construction projects exceeded
statutory limits for the use of the Operation and Maintenance appropriation.

Task Order W9113M-07-D-0005-0002
On September 28, 2007, SMDC contracting officials issued a task order to enhance the
capability of the Frontier Corps along the Pakistan and Afghanistan border. According to
the task order, the Frontier Corps conducts monitoring, interdiction, and security missions
along the Pakistan/Afghanistan border to target narcoterrorists and other terrorist threats.
Specifically, the task order will enhance the Frontier Corps Training Center (training
center) and two Border Surveillance Centers (surveillance centers) by improving or
creating the facilities and structures. SMDC contracting officials and CNTPO officials
established nine military construction projects under one task order, with each building as
a separate contract option. CNTPO officials funded the military construction projects,
worth approximately $17.1 million, with the FY 2007 Department of the Army, Navy,
and Air Force Operation and Maintenance appropriations. See Table 2 for a list of the
nine buildings constructed.

      Table 2. Construction Projects for Task Order W9113M-07-D-0005-0002
 Task Order               Description              Location      Amount
    Option                                                     (in millions)
 Basic           Barracks – Pakistani Forces       Pakistan        $3.2
 Option A               Dining Facility            Pakistan         1.6
 Option C            Instructors’ Quarters         Pakistan         1.8
 Option D              Training Center             Pakistan         1.2
 Option E           Headquarters Facility          Pakistan         1.4
 Option H         Barracks – Afghan Forces         Pakistan         1.8
 Option J        Barracks – Coalition Forces       Pakistan         1.8
 Option G             Surveillance Center        Afghanistan        1.9
 Option I             Surveillance Center        Afghanistan        1.9
 Fixed Fee                                                          0.4
 Total                                                            $17.1*
 *
     Amounts do not equal the total because of rounding.

Although officials established nine military construction projects, there were actually
three distinct military construction projects: the training center in Pakistan; and


                                                    43
two surveillance centers in Afghanistan. Specifically, the contractor built seven buildings
at the training center for approximately $12.8 million and two surveillance centers in
Afghanistan for approximately $1.9 million each. By splitting projects to meet statutory
limitations, SMDC contracting officials and CNTPO officials circumvented Congress’s
intent for the purpose and proper use of the Operation and Maintenance appropriation.
Even without splitting the military construction projects, seven of the nine buildings
exceeded the $1.5 million Operation and Maintenance statutory limitation for unspecified
minor military construction projects. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer should request that the Under Secretary of Defense
for Policy conduct an initial review of this purchase to determine whether SMDC and
CNTPO officials committed an Antideficiency Act violation.

Task Order W9113M-07-D-0007-0006
On March 28, 2008, SMDC contracting officials issued another task order for
approximately $3.1 million to expand existing facilities at Kabul Afghanistan
International Airport (Kabul airport). CNTPO officials funded the task order with Navy
FY 2008 Operation and Maintenance appropriation to accommodate support aircraft for
the Drug Enforcement Administration. According to the task order, the contractor was
required to construct four buildings at Kabul airport: an aviation hangar, an office
building, a storage building, and living quarters. Although the task order was to construct
four different buildings at a single location, the contracting officer did not individually
price the construction of each building. The contracting officer established one military
construction project for approximately $3.1 million to create four different buildings
under the task order.

Consequently, SMDC contracting officials and CNTPO officials may have violated the
Antideficiency Act by exceeding the $1.5 million statutory limitation. Officials followed
the ASD(SO/LIC) memorandum for unspecified minor military construction projects;
however, the memorandum had no authority and did not comply with 10 U.S.C. 2805.
Contracting officials and CNTPO officials must fund any military construction project
costing more that $1.5 million with the Military Construction appropriation. The Under
Secretary of Defense (Comptroller)/Chief Financial Officer should request that the Under
Secretary of Defense for Policy conduct an initial review of this purchase to determine
whether CNTPO officials violated the Antideficiency Act. In addition, the Deputy
Assistant Secretary of Defense for Counternarcotics and Global Threats must stop
performance on any current or future task order for military construction projects costing
more than $1.5 million financed with an Operations and Maintenance appropriation.

Commercial Items for RDT&E Efforts
DOD FMR, volume 2a, “Budget Formulations and Presentation,” chapter 1, “General
Information,” August 2007 states that the RDT&E appropriation will fund RDT&E
efforts performed by contractors at Government installations, including the procurement
of end items. DOD FMR, volume 2a, chapter 1, also states that RDT&E includes the
development and operational test and evaluation efforts for those end items. DOD FMR,
volume 2a, chapter 1, explains that equipment and materials approved for production and
intended for operational use or inventory upon delivery will be funded with the


                                            44
Procurement appropriation. In addition, the DOD FMR, volume 2a, chapter 1, states that
commercial off-the-shelf equipment may be procured with the RDT&E appropriation if
those items require engineering design, integration, test, or evaluation efforts. FAR
Subpart 2.1 defines commercial items as goods used by the public or a nongovernmental
entity that have been offered for sale or lease or been licensed, or that have been sold,
leased, or licensed to the public or a nongovernmental entity. Accordingly, purchases of
equipment or material approved for production that do not require further engineering
design, integration, test, or evaluation efforts should be made with the Procurement
appropriation.

We identified two task orders that procured commercial items with the RDT&E
appropriation: task orders W9113M-07-D-0006-0004 and W9113M-07-D-0008-0003.
CNTPO officials required the commercial items to improve the surveillance of drug
trafficking around the world. However, SMDC contracting officials and CNTPO officials
misinterpreted DOD FMR volume 2a, chapter 1. Specifically, SMDC contracting
officials and CNTPO officials used the RDT&E appropriation to procure commercial
items that did not require either a significant modification or independent testing before
operational use. Additionally, SMDC and CNTPO officials had not documented that the
equipment was for RDT&E efforts.

Task Order W9113M-07-D-0006-0004
On May 1, 2008, SMDC contracting officials issued a task order for approximately
$64,000 to procure “9601-DGS-LP units” which we refer to here as tracking devices. The
task order states that the objective was to procure enough tracking devices with various
configurations to meet the mission of CNTPO. Specifically, the task order required that
the contractor provide 50 tracking devices. CNTPO officials funded this task order with
the FY 2007 Navy RDT&E appropriation.

According to the task order, CNTPO officials funded the development of these tracking
devices in a previous RDT&E effort in FY 2007, and this task order was for the
procurement of 50 tracking devices for the base requirement. The task order also stated
that the development of the tracking devices took existing commercial off-the-shelf
technology and tweaked the tracking devices to meet the CNTPO mission. CNTPO
officials stated that they subsequently modified the tracking devices for integration into a
“classified counterdrug system.” However, SMDC officials could not show that the
tracking devices or modifications supported RDT&E efforts.

CNTPO officials should have used Procurement or the Operation and Maintenance
appropriation for this task order. By using approximately $64,000 of the FY 2007 Navy
RDT&E appropriation, CNTPO officials potentially violated the Purpose Statute. A
violation of the Purpose Statute may cause a violation of the Antideficiency Act. The
Under Secretary of Defense (Comptroller)/Chief Financial Officer should request that the
Under Secretary of Defense for Policy conduct an initial review of this purchase to
determine whether CNTPO officials committed an Antideficiency Act violation.




                                             45
Task Order W9113M-07-D-0008-0003
On April 2, 2008, SMDC contracting officials issued a task order for approximately
$313,000 to procure low-cost, simple, and reliable ground sensor systems. The task order
states that the ground sensors would detect or classify any or all potential narcotics
trafficking in support of the CNTPO mission. Specifically, the contractor was required to
provide 20 ground sensors, 5 as the base requirement and the remaining 15 sensors as
part of an option. CNTPO officials funded the task order with the FY 2007 Navy
RDT&E appropriation.

The contract file indicated that the 20 ground sensors were commercial items available
under a General Services Administration, Federal Supply Schedule contract. According
to the General Services Administration Web site, the General Services Administration
contract provides commercial items. The contract file did not indicate that the ground
sensors required any engineering, design, integration, test, or evaluation efforts.

CNTPO officials stated that the intent of the ground sensors task order was to solicit
commercial solutions and procure a limited set of prototype units for in-house testing and
evaluation in realistic settings. CNTPO officials explained that the testing and evaluation
of the ground sensors were not part of the task order requirements, but part of a “larger
project.” However, SMDC and CNTPO officials could not provide us with the details of
the larger project or documentation of the testing conducted. By using approximately
$313,000 of the FY 2007 Navy RDT&E appropriation, SMDC and CNTPO officials
potentially violated the Purpose Statute. As required by DOD FMR volume 14, chapter 3,
“Preliminary Reviews of Potential Violations,” the Under Secretary of Defense
(Comptroller)/ Chief Financial Officer should direct that the Under Secretary of Defense
for Policy conduct an initial review of this purchase to determine whether CNTPO
officials committed an Antideficiency Act violation.

Summary
Two potential Antideficiency Act violations valued at approximately $20.2 million
occurred because SMDC and CNTPO officials followed an outdated and uncodified
ASD(SO/LIC) memorandum. Two additional potential ADA violations valued at
approximately $377,000 occurred because SMDC and CNTPO officials misinterpreted
DOD financial regulations. By improperly using appropriations and not adhering to
statutory limitations established by Congress, SMDC and CNTPO officials may have
circumvented Congress’s control of the public purse.

Management Comments on the Finding and
Our Response
The Principal Director for Counternarcotics and Global Threats, commenting for the
Deputy Assistant Secretary of Defense for Counternarcotics and Global Threats, provided
comments on Finding D of the draft report. A summary of management comments on the
finding and our response are in Appendix B.




                                            46
Recommendations, Management Comments, and
Our Response
D.1. We recommend the Under Secretary of Defense (Comptroller)/Chief Financial
Officer request that the Under Secretary of Defense for Policy:

        a. Initiate a preliminary review of the four potential Antideficiency Act
violations within 10 days of the date of this report to determine whether a violation
occurred as required by DOD Regulation 7000.14-R, “Financial Management
Regulation,” volume 14, chapter 3.

       b. Complete the preliminary review within 90 days as required by DOD
Regulation 7000.14-R, “DOD Financial Management Regulation,” volume 14,
chapter 3, and provide the results of the preliminary investigation to the Office of
Inspector General.

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments
The Deputy Chief Financial Officer, commenting for the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, agreed. He stated that the Under Secretary
formally requested the Under Secretary of Defense for Policy to conduct a preliminary
investigation to determine whether formal investigations should occur of the potential
Antideficiency Act violations.

Our Response
The Under Secretary of Defense (Comptroller)/Chief Financial Officer took appropriate
actions, and no further comments are required.

Deputy Assistant Secretary of Defense for Counternarcotics and
Global Threats Comments
Although not required to respond, the Principal Director for Counternarcotics and Global
Threats, commenting for the Deputy Assistant Secretary of Defense for Counternarcotics
and Global Threats, disagreed. He stated that, for the reasons stated in his comments on
Finding D, there were no Antideficiency Act violations.

Our Response
We will defer to the Under Secretary of Defense (Comptroller)/Chief Financial Officer,
to determine whether an Antideficiency Act violation has occurred.




                                           47
D.2. We recommend that the Deputy Assistant Secretary of Defense for
Counternarcotics and Global Threats:

       a. Stop performance on any current task orders and award activities on any
new task orders for military construction projects costing more than $1.5 million
financed with the Operation and Maintenance appropriation.

       b. Budget for and request sufficient funding from the Military Construction
appropriation for all military construction projects costing more than $1.5 million
as required by section 2805, title 10, United States Code.

       c. Cancel the policy memorandum on the use of the Operation and
Maintenance appropriation for unspecified minor military construction projects as
required by DOD Instruction 5025.01, “DOD Directives Program,” October 28,
2007.

       d. Issue a new policy memorandum for use of the Operation and
Maintenance appropriation on unspecified minor military construction projects in
accordance with DOD Instruction 5025.01, “DOD Directives Program,” October 28,
2007, and ensure that the memorandum complies with section 2805, title 10, United
States Code.

Deputy Assistant Secretary of Defense for Counternarcotics and
Global Threats Comments
The Principal Director for Counternarcotics and Global Threats, commenting for the
Deputy Assistant Secretary of Defense for Counternarcotics and Global Threats,
disagreed. He stated that, for the reasons stated in his comments on Finding D, there were
no Antideficiency Act violations. The Principal Director stated that the audit report
focused on the military construction limits in 10 U.S.C 2805, rather than section 1004 of
the National Defense Authorization Act of 1991, as amended. The Principal Director
stated that section 1004 provide the statutory authority to use counternarcotics Operation
and Maintenance funds for unspecified minor military construction projects costing up to
$2 million. The Principal Director also stated that his office is consulting with the
proponent of DOD Instruction 5025.01.

Our Response
The Principal Director for Counternarcotics and Global Threats comments were not
supported by the documents in the contracting files for the respective task orders.
CNTPO was not exempt from minor military construction limitations found in
10 U.S.C 2805 for counterdrug activities. Therefore, the minor military construction
limitations in 10 U.S.C. 2805 apply to CNTPO. The Principal Director should stop
performance on any current task orders and award activities on any new task orders for
military construction projects costing more than $1.5 million financed with the Operation
and Maintenance appropriation. The Principal Director should also budget for and request
sufficient funding from the Military Construction appropriation for all military



                                           48
construction projects costing more than $1.5 million as required by section 2805, title 10,
United States Code.

Additionally, the Principal Director did not state whether he planned to cancel the
ASD(SO/LIC) memorandum on unspecified minor military construction projects and
issue a new policy memorandum. We request that the Principal Director provide
comments in response to the final report addressing the recommendations.




                                            49
Appendix A. Scope and Methodology
We conducted this performance audit from August 2008 through June 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We interviewed DOD officials responsible for contract administration, management,
surveillance, and billing. We also contacted officials from the Defense Contract
Management Agency, Defense Finance and Accounting Service, and Defense Contract
Audit Agency by phone and e-mail. To review the original contracting documentation,
we visited CNTPO in Dahlgren, Virginia, and the SMDC Contracting and Acquisition
Management Office in Huntsville, Alabama.

We reviewed task orders issued under the CNTPO IDIQ contracts awarded to five prime
contractors. Specifically, we reviewed 35 task orders, totaling approximately
$98.8 million, awarded from August 24, 2007, to August 16, 2008. At SMDC contracting
officials’ request, we reviewed only the task orders issued as of August 16, 2008. SMDC
contracting officials made the request because they were working to award at least
40 more task orders by September 30, 2008, and could not fully support the
documentation request from the auditors. We reviewed the contracting office contract
files for the 35 task orders. We then determined whether the contracting officers and their
representative(s) properly managed task orders, contract management, contract
surveillance, and contractor billing. We did not review management of the award
process—the requirements definition, competition, or award decisions—nor was it part of
our planned objectives. We considered the potential task order value to be the amount of
the task order plus any options that the contracting officer could exercise. See Table A-1
for a summary of the task orders reviewed.

              Table A-1. CNTPO IDIQ Task Orders Reviewed
 Contract Number       Contractor     Task         Award                        Potential
                                     Orders       Amount                        Amount
                                                (in millions)                 (in millions)
W9113M-07-D-0005       Blackwater        8          $39.9                         $40.4
W9113M-07-D-0006                  Lockheed Martin         8      12.2             62.7
W9113M-07-D-0007                        TASC              11     45.3             45.5
W9113M-07-D-0008                      Raytheon            7      1.4                1.4
W9113M-07-D-0009                       ARINC              1      0.025             0.025
Total                                                     35    $98.8           $150.1*
*
    Amounts do not equal the total because of rounding.



                                                     50
SMDC contracting officers issued 45 task orders, with a potential value of approximately
$1.1 billion, between August 21, 2008, and March 12, 2009. While we did not review the
contract management, surveillance, or billing of the task orders in Table A-2, we
reviewed their total other direct costs. The recommendations made in this report should
be applied to the 45 task orders and any future task orders. Please see Table A-2 for a
summary of the task orders awarded after the commencement of our audit.

             Table A-2. CNTPO IDIQ Task Orders Not Reviewed
                                                  Award        Potential
                                      Task       Amount        Amount
 Contract Number        Contractor   Orders    (in millions) (in millions)
W9113M-07-D-0005        Blackwater     10         $146.1         $425.5
W9113M-07-D-0006                Lockheed Martin           15    35.1           80.7
W9113M-07-D-0007                       TASC               12   122.0          290.7
W9113M-07-D-0008                     Raytheon             7     29.8          104.2
W9113M-07-D-0009                      ARINC               1    167.2          167.2
Total                                                     45   $500.3*      $1,068.3
*
    Amounts do not equal the total because of rounding.

For contract management, we reviewed the task order files to determine whether officials
properly maintained each contract file; delegated administrative roles; identified
Government-furnished equipment, materials, property, and information; funded the task
order; and used firm-fixed-price and cost-type contracts. We reviewed task orders,
modifications, contract award summaries, funding documents, contractor proposals, and
independent Government cost estimates for compliance with the following: the FAR;
DFARS; policy memoranda issued by the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics; and the DOD FMR.

For contract surveillance, we reviewed each task order to determine whether contracting
officials properly accepted services or goods purchased, delegated CORs, created
QASPs, and managed Government-furnished property. We reviewed the task orders,
modifications, COR and task order monitor delegation letters, and contractor monthly
expense and progress reports for compliance with the FAR; the DFARS; policy
memoranda issued by the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics; and the DOD FMR.

For contractor billing, we reviewed billing information to determine whether the
contractors complied with requirements in the CNTPO IDIQ contracts, properly
submitted public vouchers, and were entitled to payment. Specifically, we reviewed the
task orders, modifications, monthly contractor expense and progress reports, disbursing
reports, public vouchers, and public voucher support documentation. We reviewed the
documents for compliance with the FAR and the DOD FMR.




                                                     51
For training, we reviewed the training records for contracting officers and CORs to
determine whether they complied with Federal and DOD requirements. We reviewed the
individual training certificates, acquisition career record briefs, and SMDC training
records. We checked the documentation for compliance with DFARS; policy memoranda
issued by the Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics; Department of the Army memoranda; Army Acquisition Corps memoranda;
and the memorandum issued by the Office of Management and Budget’s Office of
Federal Procurement Policy.

Use of Computer-Processed Data
For the 35 task orders we reviewed, we relied on the data contained in the contracting
files to support the findings and conclusions in this report. We used computer-processed
data from the Electronic Document Access system to obtain general information about
the 45 task orders awarded after August 16, 2008. The 45 task orders were not used as a
basis for our findings and conclusions. Therefore, we did not perform a formal reliability
assessment of the computer-processed data.

Prior Coverage
No audit reports on the management of the CNTPO IDIQ contracts were issued during
the last 5 years.




                                            52
Appendix B. Management Comments on
Finding D and Our Response
The Principal Director for Counternarcotics and Global Threats, commenting for the
Deputy Assistant Secretary of Defense for Counternarcotics and Global Threats, provided
the following comments on Finding D of the draft report.

Comments on Construction Projects
The Principal Director for Counternarcotics and Global Threats, commenting for the
Deputy Assistant Secretary of Defense for Counternarcotics and Global Threats, stated
that we did not did not fully consider section 1004 of the National Defense Authorization
Act of 1991. He stated that section 1004 provides independent authority to use
counternarcotics Operation and Maintenance funds, appropriated for drug interdiction
and counter drug activities, for unspecified minor military construction projects. The
Principal Director also stated that the DOD General Counsel’s office concluded that to
apply the standard ceiling on unspecified minor construction projects to
section 1004(b)(4) would essentially destroy the ability to create and operate effective
counterdrug facilities. The Principal Director stated that the Department considers
section 1004(b)(4) an exception to the limits imposed by 10 U.S.C. 2805(c)(1), but uses
the unspecified minor military construction definition contained in 10 U.S.C. 2805(a)(1)
to establish the ceiling for the use of counternarcotics Operation and Maintenance
appropriations.

The Principal Director stated that when the ASD(SO/LIC) memorandum was drafted, the
ceiling for unspecified minor military construction was $1.5 million. He stated that on
January 28, 2008, Congress raised the ceiling to $2 million. The Principal Director stated
that, regardless of the enforcement of the ASD(SO/LIC) memorandum, a statutory
authority existed for the use of counternarcotics Operation and Maintenance funds for
unspecified minor military construction projects costing up to $2 million.

Frontier Corps Project (Task Order W9113M-07-D-0005-0002)
The Principal Director stated that Army Regulation 420-1, “Army Facilities
Management,” February 19, 2008, states that facilities with a common support purpose
that are not mutually dependent can be funded as separate projects. The Principal
Director further stated that Army Pamphlet 420-11, “Project Definition and Work
Classification,” October 7, 1994, states that installing equipment that is movable and not
affixed as an integral part of existing real property is not construction and will not be
funded as a construction cost.

For task order W9113M-07-D-0005-0002, the Principal Director stated that the task
order’s base requirements and options were specifically configured as stand-alone
construction projects and not dependent on each other for any purpose. He concluded that
the minor military construction projects were independent facilities, therefore eligible


                                            53
under the statutory authority in section 1004 for counternarcotics Operation and
Maintenance funds for unspecified minor military construction projects costing up to
$2 million. The Principal Director stated that we combined the costs of furnishing and
nonconstruction services with the construction costs. The Principal Director stated that he
disagrees that there was an Antideficiency Act violation.

Kabul Airport Project (Task Order W9113M-07-D-0007-0006)
For task order W9113M-07-D-0007-0006, the Principal Director stated that the
construction projects in the task order were specifically configured as stand-alone
construction projects because they were independent. He explained that the Afghanistan
Government required the Department to move a temporary hangar from one area to a
different area near the Kabul airport, at a cost of $1.4 million. The Department then
constructed a separate office building costing $644,000 and a storage building costing
$716,000. The Principal Director stated that neither building was dependent on the other.
He also stated that living quarters costing $1 million were also constructed. The Principal
Director disagreed that the task order violated the Antideficiency Act.

Comments on RDT&E Efforts
The Principal Director disagreed that the two contracts using RDT&E appropriations
should have used the Operation and Maintenance appropriation. He stated that for task
order W9113M-07-D-0006-0004, the tracking devices (9601-DGS-LP units) were not
items that were customarily used by the general public or by nongovernmental entities for
purposes other than governmental purposes. The Principal Director also stated that the
ground sensors for task order W9113M-07-D-0008-0003 were purchased to develop the
Counternarcotics Unattended Ground Sensor System. He stated that a detailed test and
evaluation plan was written into the standard operating procedures for the system. The
Principal Director stated that the engineering and test effort met the purpose of the
RDT&E appropriation.

Our Response
The support was not included in the contracting files for the respective task orders.
Therefore, we will defer to the Under Secretary of Defense (Comptroller)/Chief Financial
Officer to determine whether a potential Antideficiency Act violation has occurred.




                                            54
Under Secretary of Defense (Comptroller)/Chief Financial
Officer Comments




                    Click to add JPEG file




                                   55
Click to add JPEG file




               56
Click to add JPEG file




               57
Defense Contract Audit Agency Comments




                  Click to add JPEG file




                                 58
Click to add JPEG file




               59
Deputy Assistant Secretary of Defense for
Counternarcotics and Global Threats Comments




                  Click to add JPEG file




                                 60
Click to add JPEG file




               61
                           Final Report
                            Reference




                         TAB A omitted
                         because of length.
                         Copies will be
Click to add JPEG file   provided upon
                         request.




               62
                           Final Report
                            Reference




                         TAB B omitted
Click to add JPEG file   because of length.
                         Copies will be
                         provided upon
                         request.




               63
Click to add JPEG file




               64
                           Final Report
                            Reference




Click to add JPEG file

                         TAB C, TAB D,
                         and TAB E omitted
                         because of length.
                         Copies will be
                         provided upon
                         request.




               65
                           Final Report
                            Reference




                         TAB F omitted
                         because of length.
                         Copies will be
                         provided upon
                         request.




Click to add JPEG file




               66
Click to add JPEG file




               67
                           Final Report
                            Reference




Click to add JPEG file
                         TAB G omitted
                         because of length.
                         Copies will be
                         provided upon
                         request.




               68
                           Final Report
                            Reference




Click to add JPEG file




                         TAB H omitted
                         because of length.
                         Copies will be
                         provided upon
                         request.




               69
                           Final Report
                            Reference




                         TAB G omitted
                         because of length.
                         Copies will be
                         provided upon
                         request.




Click to add JPEG file




               70
Click to add JPEG file




               71
U.S. Army Space and Missile Defense Command/Army
Forces Strategic Command, Contracting and Acquisition
Management Office Comments




                   Click to add JPEG file




                                  72
Click to add JPEG file




               73
Click to add JPEG file




               74
                           Final Report
                            Reference




                         Revised and
                         Redirected, page 12




Click to add JPEG file




                         Renumbered as
                         Recommendation
                         A.2.a




               75
                           Final Report
                            Reference




Click to add JPEG file




                         Renumbered as
                         Recommendation
                         A.2.b.1




               76
                           Final Report
                            Reference




Click to add JPEG file




                         Renumbered as
                         Recommendation
                         A.2.b.2




               77
                           Final Report
                            Reference




Click to add JPEG file




                         Renumbered as
                         Recommendation
                         A.2.b.3




               78
Click to add JPEG file




               79
Click to add JPEG file




               80
                           Final Report
                            Reference




                         Renumbered as
                         Recommendation
                         A.2.b.4




                         Renumbered as
                         Recommendation
                         A.2.b.5

Click to add JPEG file




               81
                           Final Report
                            Reference




                         Renumbered as
                         Recommendation
                         A.2.b.6

Click to add JPEG file   Revised and
                         renumbered as
                         Recommendation
                         A.2.b.7




                         Renumbered as
                         Recommendation
                         A.2.b.8




               82
                           Final Report
                            Reference




                         Renumbered as
                         Recommendation
                         A.2.b.9




                         Renumbered as
                         Recommendation
                         A.2.b.10




Click to add JPEG file

                         Renumbered as
                         Recommendation
                         A.2.b.11




               83
                           Final Report
                            Reference




                         Renumbered as
                         Recommendation
                         A.2.b.12




Click to add JPEG file




               84
                           Final Report
                            Reference




                         Renumbered as
                         Recommendation
Click to add JPEG file   A.2.b.13




                         Renumbered as
                         Recommendation
                         A.2.b.14




               85
                           Final Report
                            Reference




                         Renumbered as
                         Recommendation
                         A.2.b.15




                         Revised and
                         renumbered as
                         Recommendation
Click to add JPEG file   A.2.b.16




                         Deleted




               86
Click to add JPEG file




               87
                           Final Report
                            Reference




                         Revised




Click to add JPEG file




               88
Click to add JPEG file




               89
Click to add JPEG file




               90
Click to add JPEG file




               91
Click to add JPEG file




               92
Click to add JPEG file




               93
